<html>
<title> - A REVIEW OF HIGHER EDUCATION OPPORTUNITIES FOR THE NEWEST GENERATION OF VETERANS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                      A REVIEW OF HIGHER EDUCATION
          OPPORTUNITIES FOR THE NEWEST GENERATION OF VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, MARCH 17, 2015

                               __________

                           Serial No. 114-10

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-573                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA COLEMAN RADEWAGEN, American        Member
    Samoa                            DINA TITUS, Nevada
RYAN COSTELLO, Pennsylvania          KATHLEEN RICE, New York
MIKE BOST, Illinois                  JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



















                            C O N T E N T S

                              ----------                              

                        Tuesday, March 17, 2015

                                                                   Page

A Review of Higher Education Opportunities for the Newest 
  Generation of Veterans.........................................     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     2
    Prepared Statement...........................................    31

                               WITNESSES

Mr. Terence Harrison, Manager, Veterans Programs and Services, 
  The University of Cincinnati...................................     4
    Prepared Statement...........................................    31
Mr. Raymond C. Kelly, Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................     6
    Prepared Statement...........................................    33
Mr. Christopher Neiweem, Legislative Associate, Iraq and 
  Afghanistan Veterans of America................................     7
Mr. Marc A. Barker, President, National Association of Veterans's 
  Program Administrators.........................................     9
    Prepared Statement...........................................    36
Trustee William Withrow, Board of Trustees, Peralta Community 
  College District...............................................    11
    Prepared Statement...........................................    37
MG Robert M. Worley II USAF (Ret.), Director Education Service 
  VBA, U.S. Department of Veterans Affairs.......................    23
    Prepared Statement...........................................    40

                             FOR THE RECORD

The American Legion..............................................    52
SAVES............................................................    62
RAND Corporation.................................................    68
 
A REVIEW OF HIGHER EDUCATION OPPORTUNITIES FOR THE NEWEST GENERATION OF 
                                VETERANS

                              ----------                              


                        Tuesday, March 17, 2015

              U.S. House of Representatives
                     Committee on Veterans' Affairs
                       Subcommittee on Economic Opportunity
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:14 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Costello, Radewagen, 
Takano, Titus, Rice, McNerney.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Well, good afternoon, everyone. I want to 
welcome you all to the Subcommittee on Economic Opportunity's 
hearing today entitled A Review of Higher Education 
Opportunities for the Newest Generation of Veterans.
    VA's education and training programs have been credited 
with successfully transitioning and readjusting returning 
servicemembers for generations. And it has been reported that 
the post-World War II GI Bill educated ten million returning 
veterans, among them 14 Nobel Prize and 24 Pulitzer Prize 
winners, three presidents, a dozen senators, and three Supreme 
Court justices.
    As an Iraq War veteran myself, I hope and expect that our 
current generation of veterans will match or exceed those 
numbers. And the best way to ensure the new greatest generation 
flourishes is to make sure that the almost $15 billion a year 
we spend on Post-9/11 GI Bill benefits is protected for future 
generations to come.
    I would like to outline a few ways I think we can protect 
the GI Bill. First, we need to ensure that claims for benefits 
are processed accurately and efficiently. Students can't 
successfully complete a degree program if red tape and 
unnecessary delays impact payment of tuition, fees, and living 
stipends.
    I was encouraged to learn that the VA already processes a 
good amount of education claims without the need of any human 
intervention and they do that with great accuracy. However, I 
am concerned that once again the President's budget did not 
request additional funds to finish the job and automate the 
processing of original claims as well. We must make some 
investments in this system to ensure benefits are delivered in 
a timely fashion.
    Secondly, it has become clear to me and most in the veteran 
community that there simply have not been enough metrics to 
track the return on investment through student success. I am 
encouraged by the collaboration between VA and advocacy groups 
to promote the Million Records Project that, for the first 
time, tracks student success.
    I look forward to hearing more today about the newest 
iteration of this project and other ways to track student 
outcomes.
    The final way to protect the GI Bill is to require 
additional transparency on outcomes for students in schools. In 
that vein, I am also looking forward to hearing our witnesses' 
views on VA's Comparison Tool and Complaint System. I know that 
VA has completed these congressionally mandated tools on a 
shoestring budget and I am interested to hear more about their 
future plans for these programs.
    As has been said before, in the end, it is up to the 
student to make the right choice and use their hard-earned 
benefits wisely. It is our job to ensure that they have the 
tools that they need to be successful and to make the right 
decisions, to help both themselves and their families.
    I want to take a moment of personal privilege and welcome 
Mr. Terence Harrison from the University of Cincinnati. The 
University of Cincinnati has taken a lead role in providing the 
best services and benefits to student veterans and I want to 
personally thank Terence Harrison for being here today with us 
to talk about their success.
    I would also like to take a minute to just mention that I 
joined the Army Reserves in 1998 and when I did, there was a 
young sergeant there who helped indoctrinate me to the 
military. This is someone who I gained great respect for and he 
was respected by all the members of our unit, a young man of 
great character and leadership. And I am not surprised that he 
sits here today.
    So welcome, Mr. Harrison, and we look forward to hearing 
from you.
    The Ranking Member is now here and if he is ready, I can 
recognize him for his opening remarks.
    Mr. Takano. Thank you.
    Dr. Wenstrup. Thank you. Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman, for your 
consideration.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Well, we live in a moment in history where one-half of one 
percent of our Nation is serving in the military. Compare that 
to the 12 percent that served during World War II. There is a 
growing gap between the shared expectations of those who have 
served versus those who haven't.
    Many veterans in our colleges face a range of issues not 
faced by their classmates. They may be older than their fellow 
classmates, outside of the classroom environment or for a long 
time and in many instances, the first member of their family to 
set foot in a college environment.
    We can all agree education benefits are earned for the 
veterans' selfless service to our country, but what does that 
mean? Does it mean that veterans have the right to receive this 
benefit and expend it in any way they see fit or did Congress 
intend for this benefit to assist veterans in a successful 
transition into the civilian workforce?
    As most people in this room are aware, our veterans perform 
a wide range of occupations while in the military. In the Army, 
for instance, for every fighting soldier, there are 2.5 
soldiers providing support in the rear. These supportive roles 
can be in logistics, administration, or preparing and serving 
food. This means that the country and the VA must serve 
veterans with a wide range of experience.
    Some experience transfers well into educational 
environments while others do not. To all of them, I say we have 
your back. As a former educator, I am a believer in the power 
of education. Those who choose to pursue an education should 
feel good about their choice and where it will lead them.
    I want to take a moment to commend my colleagues who 
introduced and supported the Transparency Act. This bipartisan 
legislation from the 112th Congress paved the way for much 
needed insight into the quality of different schools and will 
continue to provide more insight over the coming years.
    For instance, the legislation required VA's GI Bill 
Comparison Tool which servicemembers are already using to 
understand which schools best fit their needs, cost too much, 
and clarify institutions that may be a poor choice in 
comparison to others.
    I also want to highlight a piece of legislation I recently 
joined Congressman Lois Frankel and Congressman Gus Bilirakis 
in introducing, the Veteran Education Empowerment Act. This 
bill would reauthorize and improve a grant program through the 
Department of Education that provides colleges and universities 
across the country with the funds necessary to establish new 
veteran student centers and to improve and operate existing 
ones.
    However, we still have much work to do. Our Nation's heroes 
are being sold the idea that all they need to do is get a 
degree from anywhere and jobs will be presented to them on a 
silver platter.
    Too many times I have heard the story of a soldier who uses 
his or her education benefits at questionable and expensive 
schools only to find that employers aren't impressed. We as a 
country and more importantly the states have a role to play in 
insisting that institutions provide positive outcomes for 
veterans. We also have a fiscal duty to ensure that government 
dollars are not being misspent at higher educational rates with 
substandard outcomes.
    To those who are struggling to complete their educations, 
we have another obligation. In 2014, over 83,000 students using 
the GI Bill had to take remedial courses while exhausting their 
education benefits. Some also take on debt before they receive 
a diploma, a situation the Post-9/11 GI Bill was intended to 
avoid.
    We need to help servicemembers and veterans understand and 
address the education gaps prior to exhausting their education 
benefits ideally while they are serving in the military.
    And I thank the witnesses with us today for being here to 
give us their insight into these important issues and I look 
forward to the testimony.
    Mr. Chairman, sorry for my tardiness. I yield back.

    [The prepared statement of Ranking Member Mark Takano 
appears in the Appendix]

    Dr. Wenstrup. You are fine. Thank you.
    I thank the ranking member and now welcome our first panel 
to the witness table. And today we welcome Mr. Terence Harrison 
with the University of Cincinnati; Mr. Ray Kelley with the 
Veterans of Foreign Wars of the United States; Mr. Christopher 
Neiweem with Iraq and Afghanistan Veterans of America; Mr. Marc 
Barker with the National Association of Veterans' Program 
Administrators; and, finally, we have Mr. William Withrow with 
the Peralta Community College District in California.
    Mr. Harrison, you are now recognized for five minutes.

                 STATEMENT OF TERENCE HARRISON

    Mr. Harrison. Thank you.
    Good afternoon. I would like to thank you, Chairman 
Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee on Economic Opportunity, for inviting me to 
participate in today's hearing on the Department of Veterans 
Affairs Administration and its education programs as well as 
the educational and training needs of our newest generation of 
veterans.
    My name is Terence Harrison. I am the manager for Veterans 
Programs and Services at the University of Cincinnati.
    The University of Cincinnati or UC is a public research 
university enrolling more than 43,600 undergraduate and 
graduate students in 2014. Our campus is made up of students 
from all 50 states and from 100 countries from around the 
world.
    Recognized as a military friendly school, UC is both a 
leader and champion in military and veteran-related issues. 
Currently UC enrolls about 2,250 military affiliated students 
including active duty, members of the national guard and 
reserves, veterans and family members.
    Of this total, 1,007 students are using GI Bill benefits, 
and this is of the 2014 semester. With anticipated drawn down 
of active-duty personnel, the University of Cincinnati is 
energetically positioning itself to accommodate these students.
    UC adheres closely to the VA's principles of excellence and 
providing a high-quality educational experience tailored to the 
unique needs of veteran students. UC has instituted a number of 
resources and programs to best assist our youngest generation 
of veterans.
    To assist veteran students with administrative needs on 
campus, UC has a centralized veterans' one-stop shop located in 
the same building as admissions and registration. With most of 
our student services for veterans in the same buildings, these 
students do not have to navigate a large campus to find the 
right offices to meet their needs.
    To foster a sense of community and ensure a smooth 
transition to the civilian life, UC is home to the Ohio Beta 
Chapter of Omega Delta Sigma. This co-ed brethren-only 
fraternity has assisted countless veterans in their transition 
to the University of Cincinnati by providing social support and 
peer-to-peer mentoring.
    Additionally, to assist prospective students and current 
recipients of the Post-9/11 GI Bill, we are pleased that the VA 
has developed a GI Bill Comparison Tool and a VA feedback 
system. This allows students to compare their benefits across 
institutions. It is a valuable tool.
    To ensure that our veteran students continue to understand 
and best utilize their GI Bill benefits upon enrolling, UC has 
a vet success campus counselor here on our campus. This 
resource allows veterans to have any GI Bill-related questions 
answered in a timely manner. And UC is only one of three Ohio 
schools that have such a counselor.
    To meet the medical needs of student veterans, UC's 
proximity to the VA hospital allows for students to quickly 
receive any required medical services. UC is a partner with the 
VA sponsored Veterans Integration to Academic Leadership 
Program or VITAL.
    Veterans with psychological issues can meet with a VA 
clinical psychologist on campus or if they choose at the VA 
hospital. Additionally, the University of Cincinnati's Center 
of Psychological Services or CPS has a professionally trained 
and licensed staff that can address the needs of student 
veterans free of charge.
    In addition to these campus-based services, UC remains on 
the cutting edge of interdisciplinary research and training 
that benefits the Nation's active-duty military, veterans and 
their families.
    For instance, UC is participating in a joint study with the 
VA regarding the lingering effects of posttraumatic stress 
disorder. This ongoing study which opened in 2010 is charged 
with seeing which types of therapy would be beneficial to those 
veterans who experience PTSD.
    UC also fosters strong partnerships with the military 
including the Center for Sustainment of Trauma and Readiness 
Skills or C-STARS, a joint training program between the Air 
Force and the University of Cincinnati Medical Center. C-STARS 
pairs both civilian Air Force medical professionals and trauma 
and critical care through simulation training.
    UC is also an active participant in the Tri-State Vets 
Educational Group. This group is comprised of veteran 
representatives from nine universities and colleges across the 
region and meets quarterly to discuss best practices. 
Additionally, they develop programs that will improve the 
quality of life for the veterans on the respective campuses.
    With regard to implementation of Section 701 of the 
Veterans Access, Choice, and Accountability Act of 2014, UC 
does not anticipate any obstacles in offering the Fry 
Scholarship to spouses of deceased or permanently disabled 
veterans. At UC, we currently have three students receiving the 
Fry Scholarship.
    And as for implementing Section 702, UC has offered in-
state tuition to all student veterans since 2009. Because the 
Ohio GI promises, all the veteran has to do is show proof of 
residency and the school will immediately grant in-state 
tuition.
    One problem that is slowly eroding is that the veteran does 
not realize that they have to apply for residency and this has 
been a priority for us for years. And I encourage all schools 
seeking to meet the requirements to look to UC as an example.
    So in closing, I want to thank you for allowing me to share 
the great work that the University of Cincinnati is doing to 
accommodate current and future veteran students and their 
families.
    I look forward to working with you as you expand services 
for veteran students and, again, offer the University of 
Cincinnati as an example to inform policy and to guide schools 
in shaping their programs.

    [The prepared statement of Terence Harrison appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Harrison.
    Mr. Kelley, you are now recognized for five minutes.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Mr. Chairman, Ranking Member Takano, on behalf 
of the Veterans of Foreign Wars and our Auxiliaries, thanks for 
the opportunity to testify today.
    Over the past few years, the VFW has worked with this 
subcommittee to provide college readiness and access, and 
safeguarding student veterans against fraud, waste, and abuse.
    The VFW remains concerned that far too few veterans take 
advantage of their earned education benefits and the veterans 
who believe they were treated unfairly by higher education 
still lack the viable tools for swift intervention and 
adjudication.
    Congress and VA have worked to make veterans educated 
consumers and provide them a consumer feedback system so 
complaints can be lodged and actions can be taken when 
necessary.
    While these tools have provided significant assistance to 
student veterans, the VFW worries that all too often veterans 
use a Comparison Tool only after they have enrolled in school 
and that reviews of complaints logged in the consumer feedback 
system are not responded to in a timely manner.
    Through VFW's One Student Veteran resource, we have worked 
with veterans who have questions or unresolved complaints with 
their education benefits. The vast majority of these inquiries 
are directed towards eligibility and paying for college.
    However, the most concerning inquiries deal with VA benefit 
overpayment and debt collection. When an overpayment occurs, VA 
sends a notification of overpayment and provides a couple 
options for repayment. If the veteran is unable to make a 
timely repayment, his or her debt is sent to collections and VA 
will garnish payment until the debt is repaid.
    To eliminate this stress, the VFW proposes presenting 
veterans with three options for repayment when they are 
notified of an overpayment. They can either elect to repay it 
immediately; arrange repayment over several months; or have 
their months of benefit eligibility reduced by the number of 
months that must be repaid. This will allow veterans some 
flexibility in repaying the debt without a fear of financial 
instability.
    The Department of Defense was tasked with designing three 
voluntary track curricula for transitioning servicemembers to 
include the accessing higher education track. The education 
track has gone through several changes since its inception and 
is a significant improvement over past iterations.
    The VFW remains concerned that many transitioning 
servicemembers will not have access to a classroom proctor 
discussion as part of TAP. As the VFW visits military 
installations, we continue to hear that small unit commanders 
are reluctant to allow junior servicemembers to participate in 
this program. This has a direct impact on those servicemembers 
who likely need the training the most,--those who are first-
term enlisted servicemembers.
    This is why the VFW supported last year's provision to make 
participation in the education track mandatory for college-
bound transitioning servicemembers. However, this access 
problem cannot be solely through policy initiatives. It will 
likely take a major cultural shift within the military. That is 
why the VFW continues to advocate for transitional training 
throughout the military life cycle and ensuring veterans still 
have access to training and resources after leaving the 
military.
    Only a few years ago, the VFW recognized that military life 
often precludes recently separating servicemembers and their 
dependents from satisfying strict residency and physical 
presence requirements for in-state tuition, thereby often 
hindering access to quality cost-effective education.
    Erasing the in-state requirement for veterans and their 
dependents has been a top priority for the VFW and with the 
passage of VACAA, we are now moving closer to making that a 
reality. However, implementation of in-state tuition isn't 
without its road blocks. We need to ensure that states that are 
having trouble with implementation are granted the extension 
waiver. We also need to ensure that states also include 
eligible dependents in their implementation plan for in-state 
tuition.
    Mr. Chairman, this concludes my testimony and I am happy to 
answer any questions you or the committee may have.

    [The prepared statement of Raymond C. Kelley appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Kelley.
    Mr. Neiweem, you are now recognized for five minutes.

                STATEMENT OF CHRISTOPHER NEIWEEM

    Mr. Neiweem. Thank you, Mr. Chairman.
    Chairman Wenstrup, Ranking Member Takano, and distinguished 
Members of the subcommittee, on behalf of Iraq and Afghanistan 
Veterans of America and our nearly 400,000 members and 
supporters, thank you for the opportunity to share our views 
with you at today's hearing examining higher education 
opportunities for the newest generation of veterans.
    IAVA is proud to have played a leading role in the fight 
for the Post-9/11 GI Bill helping to build a united front among 
veterans' organizations and a bipartisan consensus in Congress. 
Today preserving and defending this critical benefit remains a 
top priority for our organization and our members.
    There are three overarching themes rolled into the topic of 
this hearing that stand out in the feedback we have received 
from IAVA members from across the country.
    First, our members' feedback on the Post-9/11 GI Bill has 
been overwhelmingly positive. Recent survey data indicated that 
more than half of those surveyed or their dependents have used 
the Post-9/11 GI Bill and a majority reported a good or 
excellent experience in using the benefit.
    However, more than one-third of those that have used the 
Post-9/11 GI Bill reported being impacted by late payments. In 
fact, many respondents reported delays with more than three 
payments. Student veterans often rely heavily or entirely on 
their education benefits to support themselves and even one 
missed or late payment can have a detrimental impact on their 
ability to focus on their academics.
    To the VA's credit, nearly half of those who receive late 
payments did believe that VA assisted in quickly resolving 
their issues. It is encouraging to see VA stepping in quickly 
to fix errors and address these issues as they surface. 
However, late payments continue to occur and it is critical 
that VA take corrective action to eliminate these occurrences 
altogether.
    IAVA's Rapid Response Referral Program or triple RP 
frequently assists Post-9/11 veterans who are experiencing 
issues such as these and we will continue to assist veterans 
and the VA as well in any way that we can. We appreciate VA's 
work in this area, but insist the department achieve consistent 
and timely delivery on this earned benefit.
    Secondly, turning to on-campus support programs, it is 
important to recognize that servicemembers and veterans are 
among the most driven, disciplined, and motivated individuals, 
but transitioning from active-duty military to a college campus 
can be disorienting and frustrating, especially for those who 
have recently returned from one or more combat deployments.
    Many colleges across the country have already created and 
maintain successful student veteran support operations. Rutgers 
University, for example, has five staff members solely 
dedicated to serving student vets. This staff supports the more 
than 1,000 veterans in the Rutgers system which has showed high 
academic retention rates.
    The programs at colleges around the country we hear work 
the best typically share some common characteristics. One such 
feature of successful models incorporate the veteran peer-to-
peer outreach support approach. Veteran alumni or student 
veteran leaders creating social networks often result in strong 
academic bonds among the student veteran cohort and support 
meaningful long-term connections that help them succeed in the 
future.
    Congress, the private sector, and nonprofit organizations 
should continue to invest in promoting on-campus support 
programs for veterans attending college given that these 
programs have the potential to greatly increase veterans' 
chances for success both academically and in the workforce 
after graduation.
    And, lastly, the VA complaint system. This system was 
developed to allow student veterans receiving GI Bill benefits 
to submit feedback or complaints in the event that they felt 
their school wasn't representing their best interest or they 
had a problem and that it did not comply with the principles of 
excellence required by President Obama's Executive Order 13607.
    The system is currently structured so that VA receives a 
complaint through an automated intake mechanism. It then 
notifies both the school and the student that the complaint has 
been received. At that point, the VA acts as a sort of middle 
man until the complaint is or the issue is resolved.
    Although the intake process is automated, the rest of the 
process is lax and inefficient. When a notification of a 
complaint is issued to a school, corrective action often takes 
weeks or months to resolve even common issues. Schools can 
generate wholly insufficient responses and then classify those 
responses as resolutions.
    To sum up the scenario here, Mr. Chairman, there are 
currently more than 1,000 backlog complaints and the schools 
are driving the process. IAVA recommends that two actions occur 
to correct this.
    The first is automate the entire process from front to 
back. The complaints when they are received, they need to be 
stored in the same central system so that it is centralized and 
it is easy to access.
    And the second thing is VA needs to jump in the driver's 
seat and not let the schools drive this. We recommend they set 
the expectation that these complaints are resolved within two 
weeks. That way, we are not dealing with 30 days, 60 days or 
worse which we have seen now.
    Mr. Chairman, thank you again for the opportunity to offer 
our views on this and we look forward to any questions you 
have.

    [The prepared statement of Christopher Neiweem appears in 
the Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Neiweem.
    Mr. Barker, you are now recognized for five minutes.

                  STATEMENT OF MARC A. BARKER

    Mr. Barker. Chairman Wenstrup, Ranking Member Takano, and 
Members of the subcommittee, the National Association of 
Veterans' Program Administrators is pleased to be invited to 
provide comments this afternoon.
    NAVPA is a nationally recognized nonprofit organization 
founded in 1975 by school certifying officials. Our 
organization represents close to 400 education institutions 
nationwide.
    NAVPA recognizes the significant higher education 
opportunities that are afforded this generation of veterans. We 
are committed in partnership with the Department of Veteran 
Affairs to ensure the success of the programs that are funded.
    A year ago, Student Veterans of America published the 
Million Records Project. One of the clear observations that 
emerged from the data in this study was the unique 
nontraditional education pathways that veterans take. Student 
veterans are more likely to transfer or change institutions and 
take longer than traditional college students to complete their 
education credentials. This makes defining success and 
measuring outcomes of veterans challenging.
    The GI Bill Comparison Tool is an important breakthrough in 
providing information to potential student veterans. However, 
it has significant limitations. The graduation rate used in the 
tool is the Department of Education's metric based on the 
Integrated Post-Secondary Education Data System, iPEDS.
    The iPEDS graduation cohort is limited to first-time, full-
time students. Therefore, students who arrive on campus with 
transfer credits or start at one institution but graduate from 
another are unrepresented in the graduation rate.
    Based on the American Council on Education's 
recommendations, servicemembers' and veterans' military 
transcripts are evaluated for transfer credit. If credit is 
awarded, the student will never be represented in the 
graduation cohort rate currently reported in the Comparison 
Tool.
    Being mindful of the SVA's Million Records Project, the 
metric used in the GI Bill Comparison Tool does not account for 
the unique experience and enrollment patterns of student 
veterans, specifically the arrival on campus with credits from 
the military transcript and the high transfer rate between 
institutions, thus making the iPEDS graduation data not truly 
reflective of the efforts of the student veterans or the 
institutions providing their education.
    Rather than the current graduation metric used in the 
Comparison Tool, course completion rates would be a better 
indicator of veteran students' success. While graduation rates 
are an important indicator, NAVPA believes that veterans 
deserve a more valid Comparison Tool which utilizes relevant 
data and metrics and urges Congress to ensure that the VA has 
adequate funding resources and time to develop such a tool.
    NAVPA endorses the feedback system. We support the 
increased scrutiny by the VA for validated serious complaints 
including risk-based program reviews. We ask that the 
notification follow-up and the resolution process currently be 
improved.
    Our membership reports that once they provided feedback for 
a complaint lodged against their school, resolution information 
is not currently being provided by the VA.
    It is also worth noting that there are significant concerns 
that all complaints whether valid or invalid against 
institutions is available in the school's summary section of 
the Comparison Tool.
    It is the position of NAVPA that only validated complaints 
be listed along with the summary of corrective actions taken.
    The Veterans Access, Choice, and Accountability Act of 2014 
is viewed by NAVPA as a significant commitment from our country 
to our most deserving population. Section 702 of the act 
requiring that all public institutions of learning that are 
participating in VA-approved programs charge in-state tuition 
and fees to covered individuals as described in the act is 
indeed supported by NAVPA membership.
    NAVPA is concerned that the implementation date of July 1, 
2015 may not allow all state governments to pass legislation 
that will bring their states into compliance with Section 702.
    We understand that the VA is in the process of developing 
waiver criteria for states that are actively pursuing changes 
to become compliant. It is our position that waivers may create 
a situation of inequity between state institutions.
    We respectfully request that this committee strongly 
consider House Resolution 475 which includes moving the 
implementation date for Section 702 to July 1, 2016.
    And our membership would like to commend the Department of 
Veteran Affairs for their work in successfully implementing 
Section 701 of the Choice Act. Our member schools have reported 
that the implementation of Section 701 including transferring 
covered individuals from other VA education benefits to the Fry 
Scholar has been handled very well by the VA.
    In closing, on behalf of the membership institutions of 
NAVPA, I thank you for the opportunity to discuss these 
important issues with the committee today.

    [The prepared statement of Marc A. Barker appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Barker.
    Now, Mr. Withrow, you are recognized for five minutes.

                  STATEMENT OF WILLIAM WITHROW

    Mr. Withrow. Mr. Chairman, Members of the committee, thank 
you so very much for the opportunity to appear before you 
today. I am pleased to have this chance to discuss some of the 
programs that Peralta College has developed to assist veterans.
    My name is Bill Withrow and I am a member of the Peralta 
Board of Trustees and I am also a veteran.
    The Peralta district includes four colleges located on the 
east side of the San Francisco Bay and serves over 30,000 
students. We take pride in supporting the educational needs of 
veterans through a comprehensive array of high-quality programs 
and services.
    However, not all of them take advantage of the GI 
educational benefits. Given our low cost, many veterans choose 
not to use their educational benefits while attending our 
colleges, saving them for when they transfer to the more 
expensive four-year universities and the opportunity for 
postgraduate education.
    But whether they are using their benefits or not, we still 
provide them with special assistance such as we provide up to 
six semester hours of credit for military education that can be 
used toward achieving an associate degree.
    We work with veterans to waive out-of-state tuition. 
Veterans receive priority first-in-line registration for 
classes and access to certified counselors. We enroll all 
newly-arrived veterans in a one unit semester-long orientation 
to college course that introduces them to college life and 
connects them to the services available to help them succeed.
    The Counseling Department offers transfer workshops to ease 
the transition, to ease the transition to four-year colleges 
and universities.
    We have a one-stop business and career center that provides 
free employment services to job seekers and employers.
    We provide space committed to veterans to allow them to 
interact and to relate to their peers. We also sponsor student 
clubs for veterans.
    As you can see, we value our veterans and provide services 
to make their experience successful, but we have some 
suggestions on ways to improve the existing educational 
program.
    First, there needs to be more recognition and support for 
remediation or developmental classes. I do understand that this 
is controversial, but over 70 percent of our students overall 
enrolling at the Peralta colleges need some level of 
developmental education to get up to speed to the college level 
standards.
    Veterans benefits cover six hours for developmental courses 
that are noncredit. Quite frankly, more is needed. Many 
students, especially veterans who may have been out of school 
for awhile, need more than six hours to successfully take 
credit courses and gain the most out of them.
    Second, we recommend and provide more institutions to 
resources for colleges to be able to support their veteran 
populations. We have established a dean of equity and student 
success at the district level to provide a centralized way of 
tracking the progress of veterans. Peralta is funding this 
position out of its own resources. We believe that the VA could 
and should assist with this type of institutional support.
    Finally, we encourage the military services and the VA to 
provide more transition support for veterans who are discharged 
from active duty.
    In summary, Mr. Chairman, I recently met with a number of 
our veteran students and I am pleased to find that they were 
very satisfied at the education that they were receiving, the 
administrative support and the counseling, and that they felt 
that they were receiving a solid base for their educational and 
career goals. Veterans education programs are an ultimate win-
win; a win for the student, and a win for the regional economic 
engines.
    Many of the certificate and workforce programs dovetail 
into the experiences the students have had in one of their 
services leading to rewarding careers such as auto technology, 
aviation engineering, and all of the allied health services.
    As I mentioned at the start of my testimony, I served as a 
veteran. I am a retired naval officer with over 24 years on 
active duty. I took an oath at each promotion, up to, and 
including captain, to protect the interests of enlisted 
personnel. That carries over into my retirement. I am 
personally dedicated to the well-being of our veterans and 
Peralta shares that deep sentiment. We look forward to working 
with this Committee to provide the very best educational 
experiences for our nation's veterans. They have earned it.

    [The prepared statement of William Withrow appears in the 
Appendix]

    Dr. Wenstrup. I will now yield myself five minutes for 
questions.
    First, I do want to say that I want to thank you very much 
for your input, for your advice, and for your sharing of ideas 
here today. I think it is very helpful as we move forward and 
try to make things as best we can.
    In that note, Mr. Harrison, can you tell me a little bit 
more about the tri-state vets education group and the benefit 
of sharing some of your best practices amongst other schools in 
the area?
    Mr. Harrison. Yes, sir. Our group is made up of veterans 
representatives from the nine colleges and universities in the 
tri-state region; that does include North Kentucky and 
Southeast Indiana, Cincinnati State, Northern Kentucky 
University, Thomas More College, Mount St. Joseph University, 
Ivy Tech, Wright State University, Gateway Community College, 
Xavier University, and, of course, ourselves, and also a 
representative from Veterans Upward Bound, they do join us.
    And what we do is we meet quarterly--in fact, we will be 
meeting at UC in a couple of weeks--and discuss best practices 
at each school, like what are we doing for our veterans. And 
why we do this is because it shows solidarity. We are not 
trying to poach students. We are doing this in an act of good 
faith because our attitude is they are first, school is second. 
So anything that is best for the veteran, we are going to try 
to push it to our schools, get our administration on board.
    And also, too, when we go out and talk about the different 
programs to the Reserve and National Guard units, we are 
showing them that, Hey, we are on board; we are not just 
looking at you as just a number, we are looking at you as an 
individual. So if this is not the school for you, you can call 
this veterans rep at this school and they are going to be able 
to help you.
    Dr. Wenstrup. Do you have a common number for the whole 
group that someone can call or is that through whichever 
institution they happen to engage first?
    Mr. Harrison. Oh, we just give them the individual 
institution. So if it is, you know, Xavier University, we give 
them the vet rep's name and their telephone, email address, and 
at the other schools, as well.
    Dr. Wenstrup. Thank you.
    I would like to ask a similar question, thereto, to you, 
Mr. Withrow. Is your college engaged in a situation like that 
or have you thought about that?
    Mr. Withrow. We work closely with communities throughout 
the districts, if you will, throughout the state, at the 
community college level. We have workshops at least twice a 
year and working with veterans is a popular one right now, 
number one.
    Number two, we have joined with six other districts to 
participate in what we call a stand-down. A lot of support 
groups, as well as educational institutions, meet at the 
fairgrounds for the Alameda County, and it is a way to try and 
break into the community.
    Quite frankly, it is not easy to market to a veterans 
group; they are dispersed--even though we have somewhere north 
of 260,000 veterans in the Bay Area, they are dispersed quite 
broadly and our method has been to, again, participate in a 
broad base, if you will.
    Dr. Wenstrup. And I know that is a concern in many 
communities, especially some of the smaller communities, in my 
own district, where the community colleges have people in the 
area who have benefits and aren't taking advantage of them.
    Along the lines of best practices, I am curious, Mr. 
Harrison, you mentioned that the University of Cincinnati has 
psychological services that are free of charge, can you tell me 
more about that and what kind of feedback you are getting, 
especially when you consider some of the issues that veterans 
face when they get out of the military.
    Mr. Harrison. Yes, sir. What we try to do is we have the 
University of Cincinnati CAPS program, which is a UC-based 
program and everybody there is a UC employee. And then we also 
have the VA service, the VITAL program. And the VA hospital is 
within walking distance of the university. So what that does is 
we give the veteran a choice, if they want to see a VA 
psychologist, they can go to the hospital. They can come--or 
the psychologist can come to the school and we will give them 
space to speak to that individual, be it my office or a 
conference room, we will give them that space. And the same 
with the CAPS, they do have a place where they can go. They 
have trained psychologist, and it is a holistic program.
    So it is really just giving that veteran an option on who 
they want to see, but we work closely----
    Dr. Wenstrup. And are they taking advantage of that?
    Mr. Harrison. Oh, yes. And one of the problems is that a 
lot of veterans may or may not be aware of the services 
because, you know, they get flooded with emails at school from 
their instructors or from whoever, so it is just trying to make 
sure that when they come to our window and we find out they 
have some type of issue, we direct them in the right location 
so we can take them to the Office of Disability Services who 
they can refer them to CAPS or we can call the VA counselor, if 
needed.
    Dr. Wenstrup. Thank you very much.
    I know recognize the ranking member for any questions that 
he may have.
    Mr. Takano. Mr. Withrow, I would like to welcome someone 
who's a community college trustee. I was one for 22 years in 
California, so I welcome this question about veterans, using 
their benefits. Do you believe that--do you have an idea of how 
many veterans are in need of remedial education, the number of 
students?
    Mr. Withrow. Well, I can tell you that at least one college 
that we polled, the comparison tool showed 144 veterans using 
the GI Bill and we have identified 260 that we are focusing on. 
So it is about relationship at each of the colleges.
    Our, as you know, our tuition fees in California are pretty 
low----
    Mr. Takano. Yes.
    Mr. Withrow [continuing]. And so it does make it, for those 
who have the wherewithal, quite frankly, to live and subside, 
it does make sense to defer using the GI Bill until they pursue 
a four-year university.
    Mr. Takano. But we think there are a lot of veterans who 
are not using their benefits, right? That a lot of veterans are 
not using their benefits at all; and do you think that an 
impediment for some of these veterans might be that they are 
not college-ready?
    Mr. Withrow. I do, no question about that. And that is the 
reason why we feel concerned about what we call developmental 
education.
    Mr. Takano. So there are veterans who are obviously saving 
their benefits for a more expensive education, but there is a 
whole swath of veterans that we know are not using their 
benefits at all because they may be impeded by their lack of 
preparedness to engage college over work.
    I was unaware that they can use up to--how much of their 
veterans benefits can they use?
    Mr. Withrow. They can use six credit hours.
    Mr. Takano. Six credit hours.
    But they have to be enrolled in a full-credit load in order 
to be able to get their living stipend; is that right?
    Mr. Withrow. They have to complete 12 hours before it is, 
in fact, waived.
    Mr. Takano. Okay.
    Mr. Withrow. So far, that hasn't been an issue, but in 
talking to counselors and talking to faculty, they feel that 
the veterans who would get more out of the courses they take, 
it would have more meaning and more depth to it if, in fact, 
they had taken some developmental courses before.
    Mr. Takano. Okay. Does your district offer any condensed or 
short-term remediation programs, like something that can be 
done in the summer, something over a semester, different levels 
of remediation, Mr. Withrow?
    Mr. Withrow. You know, I don't know that I have enough to 
really answer that. I'm sorry.
    Mr. Takano. Okay. Do you believe that--I mean I personally 
believe that we should do something supplemental so we don't 
cause veterans to have to use up their precious benefits. Some 
veterans can get this remediation done in three months; maybe 
some in a semester; maybe some in a year. Pell Grant 
recipients, for example, can use up to a year of their benefits 
full-time for remediation. I think we should do no less for our 
veterans and we shouldn't cause them to eat up their existing 
pool of benefits.
    I think we make these veterans--we recruit servicemembers 
on the basis of these educational benefits and they are empty 
and hollow if they can't use them because of this lack of 
college preparedness. And we know there is a whole swath of 
these veterans that are transitioning and this is a huge 
barrier.
    Mr. Neiweem--is that how you say your name--can you--the 
Iraq and the Afghanistan veterans, do you believe that far more 
of them would use these benefits? Do you think this is also an 
impediment to their using these benefits?
    Mr. Neiweem. So, Mr. Takano, I think it is a great concept. 
In our recent survey research, we didn't specifically go after 
that, but I know there are many veterans who didn't use their 
benefits right away, and the longer the time goes on, a lot of 
those basic core competencies, such as college math, those 
sorts of things--you know, if you don't pass the competency 
level for math 101, you are going to be taking 98 or 99, so I 
am sure many veterans would benefit, would fall into that 
category. But I can't give you a specific number now, but we 
could launch a survey about it.
    Mr. Takano. Great. I would appreciate that and that would 
be wonderful if you could do that.
    Mr. Chairman, my time is up--do--I have 26 seconds left, 
okay.
    I want to switch topics a little bit to Mr. Harrison. You 
receive students--transfer students from both, the community 
college system and for-profit programs. Can you tell me if 
there is a difference in the level of preparedness with these 
types of transfer students? Do a lot of students come from for-
profit institutions with credit that is not transferable, for 
example?
    Mr. Harrison. Unfortunately, yes. Even in my previous 
position as assistant director of Veterans Upward Bound, the 
community college--I was at Cincinnati State, we did have 
veterans who tried to transfer--well, they didn't try, they 
transferred in, but, you know, to their dismay, they found out 
that their credits didn't transfer from the for-profit schools.
    And one thing, you know, that I am committed to do is when 
I, like I said earlier, when I do outreach is to explain to the 
Reserve or Guard member like, Look, as you use your benefits, 
you need to watch out for these schools, because they tell you 
that they are certified, and they are certified, but who is 
their accrediting 
institution? And then once they find that out--and I am not 
telling you where to go to school, but really you need to 
decide for yourself, because they will promise you everything 
and you have nothing to show for it once it is all shown and 
done except for a high debt.
    Mr. Takano. Well, thank you.
    My time is up, Mr. Chairman.
    Dr. Wenstrup. Thank you.
    Mr. Costello, you are recognized for five minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Thank you all for being here at this hearing to provide 
your recommendations on how to best improve higher education 
opportunities for our newer generation of veterans. I will also 
share with you, in having read the written testimony from each 
of you, that it is very substantive and I think very helpful as 
a policymaker in terms of not only understanding what programs 
are provided, but how we can go about making them better.
    And I want to specifically reference for those of you who 
do have the written testimony here today. My question is for 
Mr. Kelley, but I would certainly invite everyone else to weigh 
in. And it is on page 4 of your testimony, the first full 
paragraph where you say--and this relates to the transition 
assistance program:
    ``However, the VFW remains concerned that many 
transitioning service members will not have access to a 
classroom-proctored discussion as part of TAP. As the VFW 
visits military installations, we continue to hear that small 
unit commanders remain reluctant to allow junior transitioning 
service members to participate in TAP. Even though TAP is now a 
commander's program, the VFW believes that some military 
commanders still fail to take TAP seriously. In our visits to 
transition sites, this is not as much of an issue for mid-
career service members or retirees. However, it has a direct 
impact on the transition of first-term enlisted service 
members, who likely need the training the most.''
    My question is more oriented towards asking you, any of 
you, to share your observations on how we can make the TAP 
program more effective, given what you have identified as, at 
least your concerns, and maybe the challenges on how to make it 
more effective.
    Mr. Kelley. Access to that information is critical, so if 
you have one access point toward the end of your military time 
and it didn't all sink in and you don't have the ability to go 
back and see that after service, that is a problem. In-person 
meetings are always going to be better than a big group setting 
where people don't have the opportunity to ask questions, and 
it is on a time hack and people are hurrying through it.
    So I think the set-aside and making that mandatory--if 
somebody is going to go to college, they need to be prepared, 
and having it as a recommendation, as an option, and then a 
commander saying, I am sorry, Mr. Kelley, you can't go to that, 
we need you in the field today, we need you here, we need you 
doing that. So we need to make it mandatory. We need to make it 
a priority to make sure that people are trained and ready to 
go.
    Mr. Costello. Jumping two paragraphs below, that last 
sentence: ``. . . the VFW continues to advocate for 
consistently delivering transitional training throughout the 
military lifecycle and ensuring that veterans still have access 
to training and resources after leaving the military.''
    So, specifically, what might you suggest in order to make 
the TAP program more effective? Is it making access to the 
program earlier in the servicemember's term of service, so at 
least they know what they are going to be getting out of TAP at 
a later point in time?
    I mean, what I don't think any of us want to see is that 
you have this static program that you enter into for a moment 
of time and then that moment of time is up and that is your 
program, when it seems to me that the more it carries with the 
servicemember, the more effective it is going to be.
    Mr. Kelley. The more modes of education you give somebody, 
the better they are going to receive it. So TAP is one mode, 
but if you have--a lot of this information is on Army--AKO--
Knowledge Online, so they can--the servicemembers can go on 
there and find out what they need to do to prepare; that is one 
method.
    I know the Marine Corps has correspondence courses. To get 
promoted in the Marine Corps, you had to take finance for 
Marines. It wasn't a real complicated course, but you had to 
check that box in order to get promoted.
    Having that for education benefits, to know how to use your 
tuition assistance and how you can parlay that into your GI 
Bill would be very important-be able to have bridge courses 
before you even leave active duty.
    Mr. Takano asked the question, are people ill-prepared or 
do they have reservations about accessing college? And they do. 
If you have been out of service or out of school for six 
years--and it wasn't a big priority to you because you knew 
that you were going to go into the service,--community you 
didn't retain a lot of that. And now that you are coming to the 
end of your military service, you start thinking, I don't 
remember algebra at all and I haven't written anything other 
than maybe a small report, so that is probably not going to cut 
the mustard.
    So we need to give them opportunities along the way to keep 
relevant in those skills, because they are perishable.
    Dr. Wenstrup. Ms. Rice, you are recognized for five 
minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    So I recently met with a group of veteran service 
organizations back in my district, back on Long Island and they 
raised a number of issues and I just want to see if these are 
things that you have experienced either at your school or in 
servicing the veterans who come to ask you for help.
    The entitlement period that you can access these benefits, 
is that--it is my understanding that that is a 36-month 
entitlement period that they have to use the benefits during 
that time. Is there any way to extend that--I guess I will ask 
this to you, Mr. Harrison--in terms of--or whoever else thinks 
they might be able to do that--to take into consideration all 
the other, whether they are working part-time or full-time 
supporting their families, the levels of stress?
    Mr. Harrison. I know our VetSuccess counselor did a 
tutorial on that for some of our administrators and she 
explained the matrix, like, you know, it says 36 months and if 
you drop it down part-time or halftime, whatever, it is togoing 
to extend--it is not like 36 straight months, you know.
    Ms. Rice. You can take breaks?
    Mr. Harrison. Yes, if you can justify them.
    Ms. Rice. Okay. And if this person was not given that 
benefit, that is something that we might be able to do 
something about?
    Mr. Harrison. Well, they have to be given the benefit.
    Ms. Rice. Or wasn't given that extension, I should say.
    Mr. Barker. Ms. Rice, if I may?
    The benefit--the charge for the entitlement of the benefit 
is not--the 36-month charge is only charged a full month if the 
student is enrolled at full-time for the full month.
    Ms. Rice. You have to be full-time.
    Mr. Barker. To answer your question, for a student who is 
attending a college or a university using the first 9-1-1 GI 
Bill at less than the full-time rate, then there is a natural 
expansion of the benefit in there, in that the entire month, 
the 36 months is not being eaten up. Does that make sense?
    Ms. Rice. Yes. I just wanted to--because I will address 
this issue with this particular person who brought it up with 
me, but thank you.
    Now, Mr. Harrison, how--obviously, we know that a lot of 
student veterans, in addition to going to school, they have 
families, a lot of them are dealing with post-traumatic stress 
disorder, or other mental health or other stress problems that 
could affect their ability in their day-to-day classes. What, I 
guess, what do institutions like yours do to ensure that 
professors are prepared for those unique challenges that 
student veterans face? I know that you said that you have 
counselors there that they can be referred to, but is there any 
particular training that the actual professors go through to be 
able to maybe identify at some--a student who might be 
presenting at-risk symptoms?
    Mr. Harrison. We just do it on an individual basis. So if 
we get word that an individual is having an issue in school, I 
will personally reach out to that instructor and try to find 
out what is going on, if it is the instructor or if it is the 
student or if it is a little bit of both. And we let the 
instructors know; we do have tutorials throughout the school 
year, you know, it is like, okay, if this is going on, let us 
know. You have our office. You have the Office of Disability 
Services. You have the Center for Psychological Services. We 
give them all the phone numbers they may need in case something 
were to happen.
    Plus, we also have--we just instituted this at our school--
it is like a safe zone, safe for veterans. So, there is like a 
placard they can stick on their window, so if a veteran is 
having a hard time, they can look and see, okay, I can go here 
and they know what is going on and they know who to call.
    Ms. Rice. Okay. To the--I know I have very limited time--I 
just wanted to throw this out. I am going to ask this of Mr. 
Withrow. I have a community college in my district, Nassau 
Community College, that also serves a large number of veterans 
and wants to hire, you know, a VetSuccess on Campus counselor 
to better understand their needs, but I understand the ability 
to do that is driven by the size of the school; is that true? 
And if so, what is your reaction to that?
    Mr. Withrow. There are no constraints on the size. I 
don't----
    Ms. Rice. Any size school can access a counselor?
    Mr. Withrow. Any veteran can access a counselor.
    California has a well-known shortfall in counselors 
throughout, including the community colleges, but we have made 
a point of having dedicated counselors that, in fact, are--
receive certificates that they are qualified to counsel 
veterans. And whether the veterans are taking advantage of the 
GI Bill or not, they still have access to these counselors.
    Ms. Rice. Do you have a--yes.
    Mr. Barker. Very quickly, Ms. Rice.
    I believe that you are alluding to a program that is a VA-
specific program, VetSuccess on Campus. It does have some 
parameters for the amount of veterans that are on campus, but 
that is a very specific VA program, and then the proximity to 
other veterans services. So it is a VO region. It's the number 
of veterans on campus, yes, indeed.
    Ms. Rice. With the Chairman's indulgence, just one--I had 
another individual who brought an issue to--and just to anyone 
who can answer this--this veteran expressed that it was 
difficult for him to access full benefits. If you have a mental 
health issue that results in a less-than-honorable discharge, 
that has got to be fixed. Do you all agree?
    Mr. Barker. Absolutely.
    Ms. Rice. Good. There you go. I just think that we would 
all agree that that is crazy.
    And one other thing, I think that like anything else, it is 
getting the word out there to people, to veterans, that there 
are these benefits out there for them to access and that is 
always--when you talk about how we can better serve the veteran 
population, outreach, I think, is the number one thing that we 
can improve on.
    Thank you very much for the Chairman's indulgence.
    Dr. Wenstrup. Ms. Radewagen, you are recognized for five 
minutes.
    Ms. Radewagen. Thank you, Mr. Chairman.
    I, too, want to thank all of you for being with us here 
today. My question is for all of you: Can you please discuss 
the most common barriers to success that student veterans 
encounter and what can be done to help students overcome these 
student barriers, especially those student veterans living in 
remote areas such as American Samoa, attending a local 
community college.
    We don't have a local VA benefits counselor that can help 
them navigate these barriers. A benefit counselor comes from 
Hawaii maybe once a month or every couple months, depending on 
their availability, to help our veterans answer benefits 
questions. That is not adequate support for our veterans who 
are geographically and economically isolated and who live 2500 
miles due south of Hawaii.
    Mr. Kelley. I think the number one access issue is 
finances. Without in-state tuition, veterans are paying out of 
pocket. Students who are in American Samoa going to community 
college and want to transfer to the University of Hawaii are 
going to pay out-of-state tuition; we need to fix that.
    Mr. Barker. I would agree with the gentleman from the VA 
that finances can become the biggest challenge, but I would 
offer that the residency issue is just one issue. And out-of-
state tuition and fees, there is a vehicle in place currently 
for institutions to be able to participate in the Yellow Ribbon 
program, which is a partnership between the Department of 
Veterans Affairs and an individual institution. So there is a 
vehicle there that exists.
    I harken back to academic preparedness, frankly, and I 
think that the folks that make up my membership in 400 
institutions would probably agree that academic preparedness 
and veterans arriving on campus being able to face the rigors 
of higher ed becomes their biggest challenge. And not because 
they don't have the capacity, but, frankly, they don't have--in 
a lot of cases they don't have the--I don't want to say 
motivation, because they are highly motivated, but they just 
have not seen what it takes to be successful in higher ed 
previously, so they don't have a model to follow frankly.
    Ms. Radewagen. Thank you.
    Mr. Withrow. I would like to followup on that, if I could. 
We found that counselors are the key to removing barriers to 
success. And having access to counselors who not only can give 
guidance, but become advocates, that is something that we have 
stressed.
    I would also like to point out that not all veterans fit 
within a box. I mean we have veterans that, given the kind of 
services that they were involved in, are extremely well-
prepared. Quite frankly, we only give them six hours of credit, 
but graduates of the Language Institute Monterey receive a 
fantastic education; it is one of the finest in the country, if 
not in the world.
    Again, it depends on what the veteran has worked in. A lot 
of the applications are, in fact, convertible into civilian 
life, they are convertible into success and education, a lot 
are not. And it is the ones that are not we have found that the 
counseling is the most advantageous.
    Mr. Neiweem. And if I could just say that I think more 
basically just a human connection. I mean someone with a human 
connection or a significant other is more, with a significant 
other, is more likely to succeed, and if they do not, having a 
veteran that they have a connection with is going to enhance 
the campus experience.
    And I did want to touch on the fact that the IAVA and VFW 
both have been supporting the Discharge Review Board of you, 
Board, to look at veterans that have been discharged other than 
honorable, that there be a remedial mechanism to see if that, 
you know, that discharge may have been related to post-
traumatic stress in combat. So that is something we have 
supported.
    And just one clarification, I think we clarified it, but 
the 36-month benefit is the duration of the benefit, it is not 
an eligibility window, so you can use it after the 36 months.
    Ms. Radewagen. And I hear from Mr. Harrison.
    Mr. Harrison. Yes. I guess at a large urban school some of 
the problem that other institutions may face, we do or we don't 
face, one of the things I have seen outside of funding, you 
know, sometimes they run out of benefits or even if they are 
discharged or care after service may not be what they need, 
sometimes it is just that lack of fear. You know, because no--
you know I relate my own experiences when I got back from Iraq. 
You know, you are going at such a high tempo that when it is 
all said and done you are back to a civilian life. Then it is 
just like--you are like a fish out of water.
    And sometimes what that younger veteran within the 
experience--they don't have the life experience of your average 
25-year-old who just graduated high school and went straight to 
college. They have done a lot more, I mean you are 19 years 
old, you know, you are signing a will to give all your worldly 
belongings to somebody else, your range of experience is 
broader than that.
    But then I try to motivate them too. Say, look, if you can 
handle Iraq, you can handle the classroom. Don't worry about 
failing, you are not going to fail, we got people here who want 
you to succeed, they don't want to fail you, and we got people 
here to prop you up. So really it is just trying to encourage 
them and motivate them like, hey, you can do this.
    Ms. Radewagen. That is very helpful. Thank you very much, 
my time is up. Mr. Chairman, thank you.
    Dr. Wenstrup. Ms. Titus, you are recognized for five 
minutes.
    Ms. Titus. Thank you. Thank you all for being here. I am a 
long-time professor at UNLV, and often have veterans in my 
classes, and appreciate what they bring to that setting, and to 
the university.
    I know at last Congress we addressed the question of out-
of-state tuition. Some of the states already allowed veterans 
to pay in-state tuition and then that made it nationally, but 
if we didn't include those from Samoa, we should certainly go 
back and take a look at that.
    Also I was just going to say that I completely agree with 
the Ranking Member's concern about taking remedial courses and 
being brought up to speed so that you can succeed once you 
start taking the regular course work or whatever major you 
choose.
    One of things that has been pointed out to me is the 
problem with the housing benefit. If you go to college and 
start your housing benefit when you are taking the remedial 
course, it will run out before you finish taking the whole 
degree program, so we ought to look at that benefit as it 
connects with the GI Bill and I look forward to working with 
you on that. We have had several conversations about that.
    Another thing is the Student Veterans Association at UNLV 
is a great resource, I work with them often. And one of the 
things that they brought to my attention is the problem with 
the need for childcare, especially women veterans going back to 
school and do not have any access to childcare. Many 
universities do not provide it on the campus, and the GI Bill 
does not give you any benefit.
    So I am trying to look for ways that we can perhaps do some 
benefit for childcare while you are in school. And I wondered 
if you all would work with me on that, if you have any 
suggestions, if you think that this is a worthwhile way to go, 
if you have heard about yourselves on your campuses. We can 
start with Mr. Neiweem and whoever might want to weigh in, I 
would appreciate it.
    Mr. Withrow. If I could just to start with. Two of our four 
colleges have childcare centers. And it becomes very meaningful 
if we have a veteran who is married and has children, and the 
wife is the provider, the financial provider. The childcare 
becomes a very important element in terms of that veteran 
succeeding and being able to focus on education as opposed to a 
lot of the hierarchy of needs, if you will.
    Mr. Barker. Ma'am, my campus is a four-year state 
institution in the State of Colorado and we are very fortunate 
that we have an early childhood education program as one of 
course offerings. And in that program we have a couple of 
childcare centers on our campus, and specifically our student 
veterans, just about a year ago, were granted access and awards 
to that childcare, and it was a significant impact on the 
retention rates and course completion rates for our student 
veterans after we implemented access to that childcare on our 
campus. So I think that you are absolutely right.
    The childcare, regardless of the gender of the parent, 
childcare is a significant issue that could really oftentimes 
is a show stopper for our student veterans on our campuses.
    Mr. Neiweem. I would just say I think that is something--a 
great thing for Congress to consider. I mean our members' needs 
are usually based on the geography and what is available. I 
mean some universities have got great veteran services, others 
are more limited to their budgets. So it is probably a 
budgetary consideration, but certainly many of our members 
would benefit from that type of option to focus on their 
studies while they are trying to balance the needs of having a 
family because we know they are usually older students.
    Mr. Kelley. For the sake of time, the VFW supports you, 
will work with you to find solutions.
    Ms. Titus. Right. We have to figure out kind of how to 
structure it, but I think it is something that can be done that 
we need to work on. Yes?
    Mr. Neiweem. And I know in our location we do have an 
outside agency that we partner with, The Volunteers of America, 
and they do have a grant for female veterans for not only 
childcare, but if they need assistance getting to and from job 
interview. They do provide rides, they do provide bus passes, 
and they do provide gas cards if that veteran, female veteran, 
does not have the funds to do so.
    One of our challenges is just to get it out to the 
population because they are sitting on money and they need 
people to participate in it. And we are trying to do everything 
on our part to get that out to our female veteran, population.
    Ms. Titus. Well, thank you. I just know that the veterans 
would be better able to take advantage of the educational 
opportunities and the employment opportunities if they had that 
assistance with childcare, so that is what we want to work. I 
appreciate it. Thank you, Mr. Chairman.
    Dr. Wenstrup. Thank you. I want to thank you all for being 
here today, not only for the information that you brought, but 
the information that you shared with us in responding to our 
questions. Your dedication to our veterans, of course, is 
greatly appreciated.
    We will excuse this panel at this time. We have been called 
to vote, so for the second panel, General Worley, we will come 
back in probably about 35 minutes or so, and resume. Again I 
want to thank you all for being here today with us.
    I now invite our second and final panel to the witness 
table. Joining us Major General Robert Worley, director of VA's 
education service. I want to thank you for being with us today, 
I really do. And for many years of service in uniform in the 
Air Force. And I look forward to hearing from you. You are now 
recognized for five minutes.

                STATEMENT OF ROBERT M. WORLEY II

    Mr. Worley. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, and other distinguished Members of the 
subcommittee.
    I am pleased to be here today to discuss the Department of 
Veterans Affairs education benefit programs and our ongoing 
efforts to ensure education benefits are administered 
appropriately and accurately.
    My testimony will highlight the status of our 
implementation of the President's Executive Order, 13607, 
Public Law 112-249, and Sections 701 and 702 of the Choice Act. 
I will also touch on VA's information technology systems 
supporting our education programs.
    VA's education programs provide education and training 
benefits to eligible Service members, Veterans, dependents, and 
survivors. These programs are designed to assist Veterans in 
readjusting to civilian life, to help the armed forces both 
recruit and retain members, and enhance the nation's economic 
competitiveness.
    The Post-9/11 GI Bill, or Chapter 33, greatly expanded 
education benefits with the enactment of Public Law 110-252, 
effective August 1st, 2009. This program provides Veterans, 
Service members, dependents, and survivors with educational 
assistance in the form of tuition and fees, a housing 
allowance, and a books and supplies stipend to assist them in 
reaching their educational and vocational goals. The Post-9/11 
GI Bill is by far the most utilized of VA's education programs.
    Since the program began, VA has issued approximately $50 
billion in benefits to 1.4 million individuals and their 
educational institutions. The other education benefit programs 
VA administers have been fairly consistent or have experienced 
reductions in recent years as measured by numbers of trainees 
and dollars issued.
    The Executive Order on Principles of Excellence and Public 
Law 112-249 on improving transparency of educational 
opportunities were both intended to strengthen oversight, 
enforcement, and accountability within the Veteran and military 
educational benefit programs, as well as improve outreach and 
transparency to Veterans and Service members by providing 
information on educational institutions.
    These important efforts were implemented through a strong 
and effective inter-agency collaboration between VA, the 
Department of Defense, and the Department of Education, in 
consultation with the Department of Justice, the Consumer 
Financial Protection Bureau, and the National Association of 
State Approving Agencies. Over 6,100 campuses have voluntarily 
agreed to comply with the Principles of Excellence.
    Much has been accomplished through this work to both better 
inform and better protect Veterans and family members using 
educational benefits including: Registering as a Trademark the 
term ``GI Bill;'' development of a financial aid shopping 
sheet; development of Veteran outcome measures, and 
implementation of a centralized complaint system.
    Further, as a result of these efforts, VA launched an 
online vocational and academic assessment tool called Career 
Scope, as well as the GI Bill Comparison Tool, which enables 
prospective students to compare educational institutions using 
key measures of affordability and value through access to 
school performance information and consumer protection 
information. As of March 4th, 2015, there have been over 
846,000 unique visitors and over one million page views.
    Section 701 of the Choice Act expands the Fry Scholarship 
to include surviving spouses of service members who died in the 
line of duty on or after September 11th, of 2001. VA began 
accepting applications for this extended benefit on November 
3rd, of 2014, and as of March 2nd, VA has received 805 
applications.
    Section 702 of the Choice Act requires VA to disapprove 
educational programs under the Post-9/11 GI Bill and the 
Montgomery GI Bill Active Duty at public institutions if they 
charge covered individuals tuition or fees in excess of 
resident rates for terms beginning after July 1, 2015. In late 
October 2014, VA sent a letter to all the Governors outlining 
these requirements and requesting information on the state's 
ability to meet requirements in advance of July 1st.
    All states and territories have indicated a commitment to 
comply with the law and are in various stages of either 
legislative or policy development and approval. VA has provided 
extensive technical assistance to numerous states and is 
working in close partnership with the state approving agencies 
to facilitate timely compliance with this law.
    The Long-Term Solution is the Post-9/11 GI Bill Claims 
Processing Solution. In September 2012, VA implemented end-to-
end automation of supplemental Post-9/11 GI Bill Claims. This 
was a game changer. In Fiscal Year 2014, 51 percent of all 
Post-9/11 GI Bill supplemental claims were fully automated and 
another 30 percent were partially automated. As a result, 
original claims processing timeliness has improved from 30.5 
days in Fiscal Year 2012 to 17 days in Fiscal Year 2014. And 
supplemental processing timeliness has improved from 16.5 days 
to six days in 2014.
    Veterans' hard earned educational benefits are the vehicle 
by which many of our nation's heroes pursue their career goals 
and successfully transition to civilian life. VA is fully 
committed to ensuring timely access and delivery of these 
benefits and to ensuring Veterans are well-informed decision 
makers concerning the use of these benefits.
    Mr. Chairman, this concludes my statement, and I look 
forward to your questions.

    [The prepared statement of Robert Worley appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you very much, General. At this 
time, I yield myself five minutes for questions. We talked--you 
spoke today about compliance with in-state tuition and that 
provision of the Choice Act. And as I understand, there are 
four states, I believe, that are in compliance at this time?
    Mr. Worley. That is correct, sir.
    Dr. Wenstrup. Okay. And you have received some notices from 
the majority of other states that they intend to comply by July 
1st. Any idea what that number is, how many say they think they 
will have it done by then?
    Mr. Worley. Mr. Chairman, at one level or another, we have 
received indication of intent to comply from all states and 
territories. It is just we have only heard formally from about 
33 states and the District of Columbia. Formally, meaning, we 
got a letter back from the Governor's office or the appropriate 
authority in that state. Others, we have actually talked with 
or in some cases provided technical assistance with their 
legislative proposals or their policy language, and they are 
moving through their processes.
    Dr. Wenstrup. Now, I am just wondering, as are other 
people, about the notion that there may be a waiver out there. 
Are they dragging their feet or are they trying to go full 
steam ahead to get this done by what is in law, or are they 
just kind of banking on a waiver? I do not expect--I am not 
asking you----
    Mr. Worley. No----
    Dr. Wenstrup [continuing]. To try to read their mind a 
little bit. I understand that. What is your gut feeling on some 
of that?
    Mr. Worley. Mr. Chairman, what I would say is that our full 
effort and focus when the law was passed was first to make sure 
we understood it completely in discussions with our General 
Counsel and then more aggressively to get it out to the states 
and make sure they understand it. There are nuances to this law 
that need to be understood for a state to actually become 
compliant.
    As you well know, many states have some level of a 
provision for either in-state tuition or other types of 
benefits for Veterans, but many of those states do not comply 
with every aspect of Section 702, for example, the three years 
from discharge requirement and other provisions. So we are 
working very closely and focused our effort on helping states 
become compliant.
    With respect, you are right, the Secretary does have a 
waiver authority. We have not had that discussion with the 
Secretary yet, so he has made no decision on whether to offer a 
waiver, but those discussions should be happening very soon.
    Dr. Wenstrup. Well, that was going to be my next question, 
where are we, really, with that in the potential----
    Mr. Worley. Yes, sir.
    Dr. Wenstrup [continuing]. For a waiver? In the four states 
that were able to get it done, why were they able to get it 
done? I mean, is there something about that state and the 
system that they had in place already that made it simple for 
them, or did they just get on it?
    Mr. Worley. Well, the first state that was compliant was 
Texas. In fact, they had legislation that had already been put 
in place; At first, we did not think they were compliant, and 
it was a matter of having discussions with them on how they 
define certain terms that are in the law. So we really get down 
to some of the technicalities with respect to definitions of 
uniformed services or armed forces or dependent or spouse or 
those types of things. So I think these states just got after 
it and got it done.
    Dr. Wenstrup. Are you saying then, that Texas already had 
legislation in their state that allowed for in-state tuition 
for any veteran? Did they do that on their own, in the state?
    Mr. Worley. Yes.
    Dr. Wenstrup. Okay.
    Mr. Worley. Yes.
    Dr. Wenstrup. Okay. I can see where----
    Mr. Worley. That is my understanding.
    Dr. Wenstrup [contuning]. That would make a difference for 
them. Now, what plans does the VA have in place to finish the 
Long-Term Solution and finally get all original claims fully 
automated? How is that going at this point, do you think?
    Mr. Worley. As I mentioned, the long-term solution is a 
great success story. When the Post-9/11 GI Bill was enacted, it 
was virtually from pretty much a dead start as far as the lack 
of technology to implement the system. So it was very 
rudimentary at first.
    We have had six major software releases over the last three 
years, culminating in, as I mentioned, September of '12 is when 
we put into place the final software release for the Long-Term 
Solution, which allows about 50 percent, a little over 50 
percent, of the Post-9/11 GI Bill enrollment claims, which is 
80 to 85 percent of our work to be processed untouched by human 
hands through a rules-based technology.
    So it has been, as I mentioned, a game changer. It has been 
a huge success. And so we have--all the benefit types have had 
dramatic decreases in terms of their average processing days 
because of this Long-Term Solution.
    The plan, since March of 2013, the development activity has 
been in a sustainment mode. There has been no additional 
funding to do any further automation, but we know that is in a 
proposed piece of legislation from you and we will be talking 
more about that next week.
    Dr. Wenstrup. Okay. Thank you. Mr. Takano, you now have 
five minutes.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Worley, could you 
provide us with an update on the VA's implementation of the 
Principles of Excellence included in the President's executive 
order? I am particularly interested in what exactly the VA is 
doing that requires schools to ``end fraudulent and unduly 
aggressive recruiting techniques,'' and when you will begin 
risk-based program reviews, and how you plan to deal with the 
backlog of student Veteran complaints that I have heard is 
becoming an issue?
    Mr. Worley. Thank you. That is a lot, Ranking Member 
Takano. First of all, with respect to ending fraudulent 
recruiting practices, there are number of aspects to that. One 
of the aspects to that is our efforts to register as a 
trademark the term ``Post-9/11 GI Bill'' or ``GI Bill,'' that 
happened in 2013.
    And what that has done is helped give us a tool and an 
enforcement against those who would put out on websites, and 
represent as official websites, information about the GI Bill. 
The authorized users of the term are VSOs and, of course, GI 
Bill schools and the state approving agencies. But we have been 
working to enforce that, and we have actually had to issue some 
cease and desist types of letters to Web site owners.
    For schools in particular, this is something that is 
reviewed at compliance, when we go around and do compliance 
surveys. In the last three years--and we are on the same track 
this year, we do about 5,000 compliance surveys at educational 
institutions, the GI Bill-approved institutions. Marketing, 
recruiting practices, and advertising and those type of things 
are reviewed during those compliance surveys. And they might 
come up either through that review of their records, as well as 
in our discussions and interviews with veterans.
    I am sorry, the third part of your question on the 
complaint?
    Mr. Takano. Yeah, when----
    Mr. Worley. The risk-based program reviews?
    Mr. Takano. It says when will you begin risk----
    Mr. Worley. Yes.
    Mr. Takano [contuning]. Based program reviews?
    Mr. Worley. We have begun those. We began those very 
shortly, within months, after the complaint system was 
implemented in January of last year. Depending on when the 
complaints come in, the VA reviews those and triages them. The 
more serious ones, we will then direct a risk-based program 
review at that school. And we have done 46 of those. Six of 
those schools that we have done risk-based program reviews at 
have been withdrawn from GI Bill approval.
    Mr. Takano. How does the VA verify whether institutions 
have agreed to abide by the Principles of Excellence in the 
executive order, how do you verify that they are actually in 
compliance?
    Mr. Worley. First of all, they just sign up with us. 
Originally, when the executive order was first signed, we asked 
them that basically they let us know their intent to comply. 
What we have done again in our compliance survey enforcement, 
we have added an addendum to that checklist, if you will, that 
procedure that looks at all the aspects of the Principles of 
Excellence, so when we go to visit the school, we check on 
their compliance with the POE.
    Mr. Takano. What happens if they do not adhere to the 
Principles of Excellence, do they lose their GI Bill 
eligibility?
    Mr. Worley. Because the Principles of Excellence, which 
have been implemented only in the last couple of years, we have 
taken the approach during our compliance surveys of really 
trying to help people understand the implementation and to 
assist them in becoming fully compliant and understanding what 
the requirements are.
    Ultimately, down the road, if they are not compliant with 
the principles and continue to be that way, we would certainly 
remove them from the GI Bill Comparison Tool as far as a 
signatory to the Principles of Excellence. Depending on the 
nature of why they are not compliant, if it is a serious 
offense, then we would be looking at either suspending or 
withdrawing that school. But if it is a more administrative 
kind of discrepancy, then it would be more an administrative 
result.
    Mr. Takano. Great. Can you please explain how the GI Bill 
benefits are affected by remedial courses and what happens if a 
student fails a remedial class?
    Mr. Worley. Remedial classes, what we call remedial 
refresher or deficiency classes, are covered by the Post-9/11 
GI Bill benefits and the other legacy benefit types. As you 
know, the charge, there is an entitlement charge associated 
with that. And if someone is not successful at those course, 
they are able to retake them.
    Mr. Takano. All right. Thank you. My time is up, sir.
    Dr. Wenstrup. Want to do another round?
    Mr. Worley. Sure.
    Dr. Wenstrup. General, with the GI Bill Comparison Tool, do 
you think it is making it easier for Veterans to choose a 
school? Is it being effective? What kind of feedback are you 
getting on that?
    Mr. Worley. Mr. Chairman, we are getting good feedback and 
most of the feedback is, we want more of it. So as I mentioned, 
the number of page views and that kind of thing, we would 
certainly like it to be even more widely used.
    We think it will get even more use as time goes on and as 
we add more functionality to it. But it is a great tool. It 
brings together multiple different sources, multiple pages that 
a Veteran would have to go to otherwise, or a prospective GI 
Bill user, and provide some really good information. We are 
looking to enhance that functionality this year as well.
    Dr. Wenstrup. Is it helping them from the standpoint that, 
you know, they may be looking at originally 20 schools, but now 
they go here and now they are down to three, so they do not go 
visit 20 schools? I mean, I am just trying to think how they 
are using it effectively, because, you know, I do not think 
most people when they are making that step for a college that 
they just choose online, per se.
    Mr. Worley. Right.
    Dr. Wenstrup. That there is a visit involved, and so what 
are they gaining the most, do you think?
    Mr. Worley. Well, the beauty and intent really of this 
Comparison Tool is really twofold. One, it streamlines that 
process that you are talking about as far as looking, where do 
I go to look at things. But it appeals to the Veteran, because 
that is what it is for.
    It has Veteran information about schools, Veteran specific 
information, about schools that, we think a Veteran would 
consider to be important, such as is there a Veteran Success on 
Campus counselor there? Is there a Veteran Service Organization 
of some type? Are they signatories to the 8 keys to Veterans' 
success, the Principles of Excellence, and those types of 
things? And they are able to compare three schools at a time 
side by side to look at that information.
    We have also recently put on the complaint information, so 
a Veteran can see if the school has had a number of complaints 
against it.
    Dr. Wenstrup. So on there, I just have witnessed it 
briefly, does it list whether a school is in compliance with 
the in-state tuition requirement?
    Mr. Worley. That is not on there presently, but that is 
certainly something that we envision putting on something like 
a school profile page that would also include outcome measures 
and other school links and other information. But while we are 
in the process of implementing and helping to facilitate 
compliance with Section 702, we will be soon putting that on 
the GI Bill website, a kind of a tracking of what states are 
complying and what aren't. But we will ultimately put that on 
the GI Bill Comparison Tool, yes, sir.
    Dr. Wenstrup. And it might be motivating to the schools if 
it is on there or not.
    Mr. Worley. Agreed.
    Dr. Wenstrup. Also, I am just curious if the VA does not 
grant a state or school, what steps are taken to inform 
students that their school did not comply? What steps do you 
think you are going to need to take?
    Mr. Worley. Well, of course, sir, our first priority is to 
get states' compliant, to help them do that--and of course with 
the most important goal being no disruption to any of the 
beneficiaries in their use of the Post-9/11 GI Bill.
    But the law requires if a state is not compliant and there 
is no waiver in place, we will have to disapprove those 
programs, not just for the covered individuals identified in 
the law, but for all Chapter 30, all Montgomery GI Bill, and 
Post-9/11 GI Bill users in those programs. So the stakes are 
high.
    Dr. Wenstrup. Yes, it sounds like if there is no waivers, 
the schools in Texas and the three other states can start 
building some new dorms, because they will be the ones that are 
getting all the students. But I appreciate that and thank you 
for answering my questions, and I yield to Mr. Takano.
    Mr. Takano. Can you just tell me, is the VA working on 
trying to lessen the impact of remedial classes on student 
veterans in terms of--I mean, I know there is a charge against 
the entitlement, and is there a limit, a cap, on that charge 
against the entitlement?
    Mr. Worley. I do not know of any limit mentioned by the 
previous Panel Member regarding how many hours someone can take 
in remedial classes, but the entitlement charge is something 
that is in statute and require legislative action to change 
that.
    You may be aware of the Dependents' Educational Assistance 
program, DEA, offers five months of remedial, an opportunity 
for remedial classes, without a charge toward the benefit, but 
we would be happy to work with the Committee if you want to go 
down that road.
    Mr. Takano. I want to know about this and, unfortunately, I 
have to get going. But I am going to yield back the rest of my 
time, but I appreciate the Chairman going through allowing a 
second round of questions.
    Dr. Wenstrup. Well, if there are no further questions, I 
want to thank everyone here today for taking time to come and 
share your views on improving education opportunities for our 
veterans. I now ask unanimous consent that the statements from 
The American Legion, Veterans Education Success, School 
Advocates for Veterans Education and Success, and the RAND 
Corporation be submitted for the record. Hearing no objections, 
so ordered.
    Finally, I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material. Without objections, so ordered. The 
hearing is now adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]

                                APPENDIX

            Prepared Statement of Ranking Member Mark Takano

    We live in a moment in history where one half of one percent of our 
nation is serving in the military. Compare that to the 12 percent that 
served during World War II. There is a growing gap between the shared 
experiences of those who've served versus those who haven't. Many 
veterans enter colleges and face a range of issues not faced by their 
classmates. They may be older than their fellow classmates, outside of 
the classroom environment for a longer time, and in many instances, the 
first member of their family to set foot into a college environment.
    We can all agree education benefits are earned for veterans' 
selfless service to our country. But what does that mean? Does it mean 
that veterans have the right to receive this benefit and expend it 
anyway they see fit? Or did Congress intend for this benefit to assist 
veterans in a successful transition into the civilian workforce?
    As most people in this room are aware, our veterans perform in a 
wide range of occupations while in the military. In the Army for 
instance, for every fighting soldier there are 2.5 soldiers providing 
support in the rear. These supportive roles can be in logistics, 
administration, or preparing and serving food. This means that the 
country and the VA must serve veterans with a wide range of experience. 
Some experience transfers well into educational environments while 
others do not.
    To all of them I say, we have your back. As a former educator I am 
a believer in the power of education. Those who choose to pursue an 
education should feel good about their choice and where it will lead 
them.
    I want to take a moment to commend my colleagues who introduced and 
supported the Transparency Act. This bipartisan legislation from the 
112th Congress paved the way for much needed insight into the quality 
of different schools and will continue to provide more insight over the 
coming years. For instance, the legislation required VA's GI Bill 
comparison tool which servicemembers are already using to understand 
which schools best fit their needs, cost too much, and clarify 
institutions that may be a poor choice in comparison to others.
    I also want to highlight a piece of legislation I recently joined 
Congresswoman Lois Frankel and Congressman Gus Bilirakis in introducing 
the Veteran Education Empowerment Act. This bill would re-authorize and 
improve a grant program through the Department of Education that 
provides colleges and universities across the country with the funds 
necessary to establish new Veteran Student Centers and to improve and 
operate existing ones.
    However, we still have work to do. Our Nation's heroes are being 
sold the idea that all they need to do is get a degree from anywhere 
and jobs will be presented to them on a silver platter. Too many times 
I have heard the story of the soldier who uses his or her education 
benefits at questionable and expensive schools, only to find that 
employers aren't impressed. We as a country, and more importantly, the 
states, have a role to play in insisting that institutions provide 
positive outcomes for veterans. We also have a fiscal duty, to ensure 
that government dollars are not being misspent, at higher educational 
rates, with substandard outcomes.
    To those who are struggling to complete their educations, we have 
another obligation. In 2014, over 83 thousand students using the GI 
Bill had to take remedial courses while exhausting their education 
benefits. Some also take on debt before they receive a diploma; a 
situation the Post 9/11 GI Bill was intended to avoid. We need to help 
servicemembers and veterans understand and address their education gaps 
prior to exhausting their education benefits; ideally, while they are 
serving in the military.
    And I thank the witnesses with us today for being here to give us 
their insight into these important issues and I look forward to their 
testimony.
    I yield back.

                                 <F-dash>

                 Prepared Statement of Terence Harrison

    Good afternoon. I'd like to thank Chairman Wenstrup, Ranking Member 
Takano, and Members of the Subcommittee on Economic Opportunity for 
inviting me to participate in today's hearing on the Department of 
Veterans Affairs' (VA) administration and its education programs, as 
well as the educational and training needs of our newest generation of 
veterans.
    My name is Terence Harrison and I am the Manager for Veterans 
Programs and Services at the University of Cincinnati. The University 
of Cincinnati, or ``UC,'' is a public research university, enrolling 
more than 43,600 undergraduate and graduate students in 2014. Our 
campus is made up of students from all 50 states and from 100 countries 
around the world. Recognized as a Military Friendly School, UC is both 
a leader and champion in military and veteran related issues. 
Currently, UC enrolls about 2,250 military-affiliated students, 
including active duty military, members of the National Guard and the 
Reserves, veterans, and family members. Of this total, 1,007 students 
are using GI Bill benefits, as of the fall 2014 semester. With the 
anticipated draw-down of active duty personnel, the University of 
Cincinnati is energetically positioning itself to accommodate these 
students. UC adheres closely to the VA's principles of excellence in 
providing a high-quality educational experience tailored to the unique 
needs of veteran students.
    UC has instituted a number of resources and programs to best assist 
our youngest generation of veterans. To assist veteran students with 
administrative needs on campus, UC has a centralized veterans' ``one-
stop shop'' located in the same building as Admissions and 
Registration. With most of our student services for veterans in the 
same building, these students do not need to navigate a large campus to 
find the right offices to meet their needs.
    To foster a sense of community and ensure a smooth transition to 
civilian life, UC is home to the Ohio Beta chapter of Omega Delta 
Sigma. This co-ed, veteran-only fraternity has assisted countless 
veterans in their transition to the University of Cincinnati by 
providing social support and peer to peer mentoring.
    Additionally, to assist prospective students and current recipients 
of the Post 9/11 GI Bill, we are pleased the VA has developed the GI 
Bill Comparison Tool and the VA feedback system. Allowing students to 
compare their benefits across institutions is a valuable tool. To 
ensure that our veteran students continue to understand and best 
utilize their GI Bill benefits upon enrolling, the University of 
Cincinnati boasts a VetSuccess on Campus Counselor. This resource 
allows veterans to have any GI Bill related questions answered in a 
timely manner. UC is one of only three Ohio schools with such a 
counselor.
    To meet the medical needs of veteran students, UC's proximity to 
the VA hospital allows for students to quickly receive any required 
medical services. UC is a partner with the VA sponsored Veterans 
Integration to Academic Leadership program. Veterans with psychological 
issues can meet with a VA clinical psychologist on campus, or if they 
choose, the VA Hospital. Additionally, the University of Cincinnati's 
Center of Psychological Services has a professionally trained and 
licensed staff that can address the needs of student veterans free of 
charge.
    In addition to these campus-based services, UC remains on the 
cutting-edge of interdisciplinary research and training that benefits 
the nation's active duty military, veterans, and their families. For 
instance, University of Cincinnati is participating in a joint study 
with the VA, regarding the lingering effects of Post-Traumatic Stress 
Disorder. This ongoing study, which opened in 2010, is charged with 
seeing which types of therapy would be beneficial to those veterans who 
experience PTSD. UC also fosters strong partnerships with the military, 
including the Center for Sustainment of Trauma and Readiness Skills, or 
C-STARS, a joint training program between the Air Force and the 
University of Cincinnati Medical Center. C-STARS pairs both civilian 
and Air Force medical professionals in trauma and critical care through 
simulation training.
    The University of Cincinnati is also an active participant in the 
Tri-State VETS educational group. This group is comprised of veteran 
representatives from nine universities and colleges across the region 
and meets quarterly to discuss best practices. Additionally, they 
develop programs that will improve the quality of life for the veterans 
on their respective campuses.
    With regard to the implementation of section 701 of the Veterans 
Access, Choice and Accountability Act of 2014, UC does not anticipate 
any obstacles in offering the Fry Scholarship to spouses of deceased or 
permanently disabled veterans. At UC, we currently have three students 
receiving the Fry Scholarship.
    And as for implementing section 702, UC has offered in-State 
tuition to all student veterans since 2009. Because of the Ohio GI 
Promise, all the veteran has to do is show proof of residency (utility 
bill, lease statement, etc . . . ) and the school will immediately 
grant in-state tuition. One problem that is slowly eroding is that the 
veteran does not realize that they have to apply for residency.
    This has been a priority for us for years and I encourage all 
schools seeking to meet the requirements to look to UC as an example.
    In closing, I want to thank you for allowing me to share the great 
work that the University of Cincinnati is doing to accommodate current 
and future veteran students and their families. I look forward to 
working with you as you expand services for veteran students and again 
offer the University of Cincinnati as an example to inform policy and 
to guide schools in shaping their programs.
    I'm happy to answer any questions you may have.

                Prepared Statement of Raymond C. Kelley

    Chairman Wenstrup, Ranking Member Takano and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I want to thank 
you for the opportunity to present the VFW's perspective on veterans' 
education programs.
    Over the past few years the VFW has worked with this subcommittee 
to improve the higher education landscape for college-bound veterans 
through initiatives like the transition assistance program (TAP) 
mandate; establishing quality consumer resources for student veterans; 
and passing a reasonable in-state tuition protection for recently-
transitioned service members and eligible dependent beneficiaries.
    Though these initiatives have the ability to improve college-
readiness, improve access to a quality, low-cost education, and 
safeguard student veterans against fraud, waste, and abuse, the VFW 
remains concerned that far too few eligible veterans take advantage of 
their earned education benefits, and that veterans who believe they 
were treated unfairly in higher education still lack viable mechanisms 
for swift intervention and issue adjudication.
    For the balance of our testimony we will focus on ways that these 
recent initiatives have improved access and accountability for student 
veterans within higher education, but we will also focus on ways to 
further improve the system.

Consumer Resources

    Three years ago the VFW approached this subcommittee with concerns 
that veterans were either unaware of how to use their earned education 
benefits, forgoing higher education, or worse, using their benefits for 
programs of questionable quality that would not help them achieve their 
career goals. In early 2013, Congress finally passed the Improving 
Transparency in Education for Veterans Act, offering improved consumer 
resources and consumer protections for student veterans by directing VA 
to identify an off-the-shelf comparison tool through which veterans 
could easily compare institutions of higher learning; as well as 
commissioning a centralized veterans' feedback system through which 
veterans could report incidents of potential fraud, waste, and abuse.
    In January 2014, VA deployed their new GI Bill Comparison Tool and 
GI Bill Consumer Feedback System, and the VFW has worked with VA ever 
since on consistent improvements to both systems. In its infancy, the 
Comparison Tool consolidated resources from 17 different web pages 
across three federal agencies into a single online system where 
veterans could easily find institutional characteristics to help drive 
informed decision-making. In the ensuing year, the Comparison Tool has 
undergone several significant redesigns, adding new features like a GI 
Bill cost calculator, and most recently, the inclusion of student 
veteran feedback and veteran-specific performance data.
    The Comparison Tool is a reliable source of information for 
college-bound veterans, but the VFW continues to worry that not enough 
veterans use the system prior to selecting where they want to use their 
benefits. Since its deployment, the GI Bill Feedback System has 
collected 2,254 complaints from student veterans on the institutions 
they attend. The VFW believes that this is positive, considering that 
more than 900,000 veterans are currently enrolled in some kind of GI 
Bill program.
    In January, VA published its first report on the GI Bill Feedback 
System, where VA disclosed that only 312 had been adjudicated to date. 
This figure is what concerns the VFW. We recognize that not all 
complaints will be actionable, and that nearly half of all complaints 
registered to the GI Bill Feedback System are related to basic benefit 
eligibility, and not to problems with a specific school. However, the 
rate at which VA and its partners are able to triage and respond to 
complaints is a major concern.
    First, the VFW is worried that slow response times will only result 
in more harm to veterans who are waiting for their concern to be 
addressed. Complaints logged through the GI Bill Feedback System are 
supposed to trigger risked-based program reviews for schools where 
credible complaints start to mount. To date, VA has only conducted 42 
program reviews based on the GI Bill Feedback System. With more than 
1,100 complaints awaiting triage, the VFW worries that VA and its 
partners do not have the capability to respond in a timely manner.
    Sadly, time is not a luxury that student veterans have, since 
benefits only last for 36 months of enrollment. VA must have the 
ability to validate and respond to complaints in a timely manner, 
otherwise bad practices that may have been reported by veterans will 
only continue unabated. Moreover, the way in which VA adjudicates 
complaints has a direct impact on the GI Bill Comparison Tool, since 
the Comparison Tool now relies on VA's validation and adjudication of 
complaints in order to publish credible feedback on an institution.
    Fortunately, both the Comparison Tool and Feedback System remain 
marked improvements. The VFW believes these resources have the 
potential to ensure that veterans remain informed and empowered 
consumers, capable of choosing quality education programs that will 
help them to achieve their career goals.

Issues Related to Processing

    In 2013, the VFW stood up 1 Student Veteran as a resource for 
veterans who have questions or an unresolved complaint with their 
educational benefits. The vast majority of the inquiries we receive are 
directed toward eligibility and paying for college. However, the most 
concerning inquiries we receive deal with VA benefit overpayment and 
debt collection.
    Answering questions regarding eligibility are generally straight 
forward. When student veterans call with concerns regarding financing 
their education, we ensure they have discussed any available options at 
their school and direct them to specific scholarship and financial aid 
options. But when a veteran calls about an overpayment and subsequent 
debt collection, resolving the issue is not as easy.
    Overpayments happen most often when a student-veteran's enrollment 
status changes. If a student opts to change from full time to part 
time, and his or her university fails to notify VA of the change in 
status, the student-veteran will continue to receive the full living 
stipend and the university will continue to be paid the full-time rate 
for tuition. When this happens, VA sends a notification of overpayment 
and provides a couple options for repayment. If the veteran is unable 
to make a timely repayment, their debt is sent to collections and VA 
will garnish payments until the debt is repaid.
    The VFW believes veterans should be responsible for repaying the 
overpayment, but often times they have limited resources and 
immediately paying out of pocket can be a struggle. To eliminate this 
stress, the VFW proposes presenting veterans with three options for 
repayment when they are notified of the overpayment. They can either 
elect to have the overpayment immediately garnished from their next 
stipend payments, arrange to have the overpayment repaid over several 
months, or have their months of eligibility reduced by the number of 
months that must be repaid. If the veteran leaves his or her education 
program before the debt is repaid or they withdraw before they use the 
entirety of their benefit, they would be obligated to repay VA the 
difference of the overpayment. This will allow veterans some 
flexibility in repaying the debt without the fear of falling behind 
financially.

Transition Assistance Program

    In concert with the Transition Assistance Program (TAP) mandate, 
the Department of Defense was tasked with designing three voluntary 
track curricula for transitioning service members, to include the 
Accessing Higher Education track. Since its launch in 2013, the 
Accessing Higher Education track has also gone through several 
iterations, ensuring that it can adequately prepare transitioning 
service members to make informed educational choices. The VFW readily 
acknowledges that TAP in its current form is a significant improvement 
over past iterations of TAP, and we applaud DoD and its partners for 
their work on the Accessing Higher Education track.
    However, the VFW remains concerned that many transitioning service 
members will not have access to a classroom-proctored discussion as 
part of TAP. As the VFW visits military installations, we continue to 
hear that small unit commanders remain reluctant to allow junior 
transitioning service members to participate in TAP. Even though TAP is 
now a commander's program, the VFW believes that some military 
commanders still fail to take TAP seriously. In our visits to 
transition sites, this is not as much of an issue for mid-career 
service members or retirees. However, it has a direct impact on the 
transition of first-term enlisted service members, who likely need the 
training the most.
    During the VFW's recent legislative conference, one of our 
inaugural VFW-SVA Legislative Fellows recalled his experience 
transitioning in 2012. He was aware of the TAP mandate, and his unit 
commanders took it seriously. However, his immediate supervisor, a 
Marine Corps E-5, discouraged him and his other colleagues from taking 
time away from unit business to participate in transition activities.
    Examples like this are why the VFW supported last year's provision 
to make participation in the Accessing Higher Education track mandatory 
for college-bound transitioning service members. However, the VFW 
acknowledges that this is not necessarily a problem that can be solved 
solely through policy initiatives, but will likely take a major 
cultural shift within the military. With that in mind, the VFW 
continues to advocate for consistently delivering transitional training 
throughout the military lifecycle, and ensuring veterans still have 
access to training and resources after leaving the military.
    DoD and its partners have already taken steps to accomplish this by 
making every TAP module available on a public-facing Web site for 
veterans to use as a reference guide. However, this is no substitute 
for proctored discussions in a classroom setting.

In-State Tuition Protection

    Over the past few years, the VFW has recognized that veterans' 
prior military service often inhibited access to the quality, cost-
effective education offered by many public colleges and universities. 
Simply put, the transience of military life often precluded recently-
separated service members and their dependents from satisfying strict 
residency and physical presence requirements for many public schools to 
offer in-state tuition.
    Most recently, the VFW has heard from several veterans in 
California through our 1 Student Veteran initiative who reported that 
while they were legal residents of California while serving in the 
military, duty assignments precluded them from receiving in-state 
tuition at the public colleges that were directly supported by their 
tax dollars. Fortunately, this summer, this will no longer be allowed.
    Through the Veterans Access, Choice, and Accountability Act (VACAA) 
passed last summer, public colleges and universities that do not offer 
in-state tuition to veterans and their GI Bill-eligible dependents 
within three years of separation from the military will no longer be 
allowed to participate in the GI Bill. Over the past three years, the 
VFW has worked diligently on a state-by-state level to push for 
favorable in-state tuition policies for veterans. By the time VACAA was 
signed into law, more than 20 states had agreed to extend in-state 
tuition to their veterans.
    However, the VACAA protection is not without its implementation 
roadblocks. The original legislation offered states two years to come 
into compliance with the mandate. However, by the time the legislative 
process ran its course, the compliance window was reduced to less than 
a year. Moreover, the state-by-state efforts of the VFW and our 
partners had only primed states to accept veterans as in-state 
students, meaning that many states had not made considerations for GI 
Bill-eligible dependents.
    If states and public university systems do not come into compliance 
by July, these two roadblocks have the potential to lock out certain 
veterans and eligible dependents from certain public programs. 
Fortunately, the VFW sees positive momentum on behalf of states who 
wish to come into compliance by the deadline. The VFW only knows of a 
handful of states whose legislative processes may not allow for 
compliance by the start of the coming academic year. However, the VFW 
does support offering limited waivers to such states and educational 
systems, allowing them to still participate in the GI Bill, with the 
caveat that they must come into compliance no later than July 2016.
    In recent months, the VFW has conducted meetings with the State 
Approving Agencies, the National Governors Association, and the 
National Association of State Legislatures in an effort to gauge 
concerns at the state level. We are encouraged by what we have heard 
and are confident that states will take the necessary steps to comply.
    In an effort to further encourage compliance and dispel myths about 
the new in-state tuition protection, the VFW has also developed a one-
pager for use by our local advocates, who serve as the VFW's voice in 
state government. As the compliance deadline draws closer, the VFW 
intends to keep its pulse on developments, and we encourage this 
subcommittee to do the same, holding VA and its partners accountable 
for fostering compliance.
    Chairman Wenstrup, Ranking Member Takano, this concludes my 
testimony and I am happy to answer any questions you may have.
    Information Required by Rule XI2(g)(4) of the House of 
Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2014, nor has it 
received any federal grants in the two previous Fiscal Years.
    The VFW has not received payments or contracts from any foreign 
governments in the current year or preceding two calendar years.

                  Prepared Statement of Marc A. Barker

Introduction

    Chairman Wenstrup, Ranking Member Takano, and members of the 
Subcommittee on Economic Opportunity, the National Association of 
Veterans Program Administrators (NAVPA) is pleased to be invited to 
provide comments for this ``review of higher education opportunities 
for the newest generation of veterans.'' NAVPA is a nationally 
recognized nonprofit organization founded in 1975 by school certifying 
officials. Our organization represents close to 400 educational 
institutions nationwide. We voluntarily serve NAVPA in an effort to 
better serve the veterans on our campuses.
    NAVPA recognizes the significant higher education opportunities 
that are afforded this generation of veterans. We are committed, in 
partnership with the Department of Veterans' Affairs, to ensure the 
success of the programs funded to provide educational opportunities for 
our veterans and their family members.

GI Bill Comparison Tool

    A year ago, in March of 2014, Student Veterans of America published 
the Million Records Project. One of the clear observations that emerged 
from the data in this study was the unique non-traditional education 
pathways that veterans take. Student veterans are more likely to 
transfer or change institutions, and take longer than traditional 
college students to complete their education credentials. This makes 
defining success and measuring outcomes for veterans challenging.
    The GI Bill Comparison Tool is an important breakthrough in 
providing information to potential student veterans. However, it has 
significant limitations. The graduation rate used in the tool, is the 
Department of Education's metric, based on the Integrated Postsecondary 
Education Data System (iPEDS). The iPEDS graduation cohort is limited 
to ``first-time, full-time students'' (first-time degree or certificate 
seeking students). In the denominator, the rate includes only those 
students who have no previous higher education experience, and who 
enroll full-time in a degree granting program. In the numerator, the 
rate only includes those from the denominator who earn a degree at the 
initial institution. Therefore, students who arrive on campus with 
transfer credits or start at one institution but graduate from another 
are unrepresented in the graduation rate. This differentially impacts 
the reporting of veteran students.
    Based on the American Council on Education (ACE) analysis and 
recommendations, service members and veteran's military transcripts are 
evaluated for transfer credit. If credit is awarded, the student will 
never be represented in the graduation cohort rate. Because the veteran 
is excluded from the cohort, his/her successful completion of a higher 
education credential is also not captured.
    Being mindful of the SVA's Million Records Project, the metric used 
in the GI Bill Comparison Tool does not account for the unique 
experience and enrollment patterns of student veterans, specifically, 
the arrival on campus with credits from the military transcript and the 
high transfer rate between institutions--thus making the iPEDS 
graduation data not truly reflective of the efforts of the student 
veterans or the institutions providing their education.
    One set of outcome measures that is currently proposed is to 
capture the course completion rates within institutions of higher 
education. Rather than the current graduation metric used in the 
comparison tool, course completion rates would be a better indicator of 
veteran students' success. While graduation rates are an important 
indicator, NAVPA believes that veterans deserve a more valid comparison 
tool, which utilizes relevant data/metrics, and urges congress to 
ensure that the VA has adequate funding, resources and time to develop 
such a tool to accurately depict the successes of our institutions and 
students.

Feedback System

    NAVPA endorses the GI Bill Feedback system which allows educational 
institutions to work with the VA, state and federal agencies to 
mitigate veteran students' complaints. We support the increased 
scrutiny by the VA for validated serious or flagrant complaints, 
including risk-based program reviews.
    As an organization, we ask that the notification, follow-up and 
resolution process continually be improved. For example, our membership 
reports that once they have provided feedback for a complaint lodged 
against their school, resolution information is not currently being 
provided by the VA.
    Not all of the complaints received by our membership have been in 
violation of the Principles of Excellence (PoE); instead these are 
complaints from students who do not understand processes within higher 
education. The Principles of Excellence were established to strengthen 
oversight, enforcement, and accountability for students who receive 
funding from federal veteran and military educational benefit programs, 
yet it would appear from our membership, that all complaints are 
treated as PoE violations. It would be helpful if the VA could identify 
true PoE violations to be reported. The VA serves primarily as the 
facilitator between the student and school for complaint resolution and 
should take a more active facilitator role with improved communication 
to the institution.
    It is also worth noting that there is significant concern that all 
complaints, whether valid or invalid against institutions, with no 
qualifying information, is available in the School Summary section of 
the comparison tool. It is the position of NAVPA that only validated 
complaints be listed, along with a summary of corrective actions taken.

Choice Act 2014, Section 702

    The ``Veterans Access, Choice and Accountability Act of 2014'' 
being signed into law by the President is viewed by NAVPA as a 
significant commitment from our country to ensure the quality of care 
and services afforded to our most deserving population. Section 702 of 
the act, requiring that all public institutions of higher learning 
participating in VA-approved programs charge in-state tuition and fees 
to covered individuals as described in the act, is supported by the 
NAVPA membership.
    NAVPA is concerned that the implementation date of July 1, 2015 may 
not allow all state governments to pass legislation that will bring 
their states into compliance with section 702. We understand that VA is 
in the process of developing waiver criteria for states that are 
actively pursuing changes to become compliant. It is our position that 
waivers may create a situation of inequity between state institutions. 
We respectfully request that this committee strongly consider passing 
House Resolution 475, which includes moving the implementation date for 
section 702 to July 1, 2016.

Choice Act 2014 Section 701

    NAVPA and our membership would like to commend the Department of 
Veterans' Affairs Education for their work in successfully implementing 
section 701 of the Choice Act. Our member schools have reported that 
the implementation of section 701, including transferring covered 
individuals from other VA education benefits to the Fry Scholarship has 
been handled very well by the VA.

Closing

    In closing, on behalf of the membership institutions of NAVPA, I 
thank you for the opportunity to discuss these important issues with 
the committee today. We look forward to working with you on veteran 
education issues in the future.

                                 <F-dash>

                 Prepared Statement of William Withrow

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear before you today to present testimony on the 
efforts of the Peralta Community College District to assist with the 
education of our nation's veterans and their families. My name is 
William Withrow, and I am a member of the Peralta Board of Trustees. I 
was asked by our board President, Meredith Brown, to represent the 
District today as I am a veteran and a retired officer of the United 
States Navy. I served on active duty for over 24 years. I am pleased to 
have this chance to discuss all the programs Peralta has created to 
assist our veteran population.
    Peralta Community College District is comprised of four colleges--
College of Alameda, Merritt College, Laney College and Berkeley City 
College--located in the San Francisco East Bay Community. The four 
colleges serve over 30,000 students. The Peralta Community College 
District provides accessible, high quality educational programs and 
services to meet the needs of our urban, multi-cultural communities. 
The colleges and the District take pride in supporting the educational 
needs of veterans through a comprehensive array of programs and 
services.
    The Bay Area has a significant veterans population. The VA 
estimates that the area serves over 266,000 vets. Many of these were 
recently discharged from military service. They come to Northern 
California for employment opportunities as well as for the quality of 
life.
    A number of veterans attend our four colleges. However, not all of 
them take advantage of the GI educational benefits. The cost of 
community colleges is quite low in California. It costs only $46 per 
credit at Peralta. Thus, many veterans choose not to use their 
veterans' benefits while attending our colleges, saving them for when 
they transfer to the more expensive University of California, 
California State Universities or private colleges. For example, the 
VA's GI Bill Comparison Tool identifies 144 veterans attending Berkeley 
City College. By our count there are over 260. But while some veterans 
are not using their benefits while they are with us, Peralta still 
provides special help and assistance for them.
    Some of these services include the following:

        <bullet> Academic Credit. Peralta provides six semester units 
        toward an Associate Degree for military service if the veteran 
        completes an additional twelve units from Peralta's colleges. 
        This is our own initiative, not mandated by the State.
        <bullet> Tuition. Peralta waives out-of-state tuition for the 
        first year when the students establish residency. This has been 
        our policy for all students for years. We note the provisions 
        of Section 702 of the Veterans Access, Choice and 
        Accountability Act of 2014 would simplify this process further. 
        I can assure you Peralta will be in compliance.
        <bullet> Priority Registration. Veterans receive priority 
        registration for classes. This is especially important for 
        students enrolled in high demand classes.
        <bullet> Guaranteed Access to Counselors. This is another 
        important service. Statewide, California does not have 
        sufficient counselors to properly service its student 
        population. This shortage is an ongoing problem at Peralta as 
        well. However, we ensure that veterans receive priority to 
        academic and mental health counseling. All new veteran students 
        see a veteran's counselor to develop a student education plan 
        and to select their courses.
        <bullet> Orientation to College. Peralta enrolls all new 
        veteran students in a one unit semester-long ``Orientation to 
        College'' course that introduces them to college life and 
        connects them to the services available to help them succeed. 
        The semester long course ensures that students are supported 
        through those critical first weeks when many students get lost 
        and drop-out.
        <bullet> Career Guidance. To assist veterans with their post-
        Peralta careers, the Counseling Department offers transfer 
        workshops to ease the transition to four year colleges and 
        universities. The College of Alameda also has a one-stop 
        business and career center which provides free employment 
        services to job seekers and employers. The center offers a 
        variety of services including preparation workshops, employer 
        interviews, career fairs and placement assistance.
        <bullet> Dedicated Space. Finally, at each of our four 
        colleges, we provide dedicated space committed to veterans, to 
        allow them to interact and relate to their peers. This space is 
        for all veterans whether they are using benefits or not. We 
        have also fostered the growth of veterans student clubs.


Suggested Improvements

    As you can see, Peralta values our veteran students, and provides 
services to them to make their experience successful. But we have some 
suggestions on ways to make the existing veterans education programs 
better.
    First, there needs to be more recognition and support for 
``remediation'' classes. At Peralta, we prefer to use the term 
``developmental''. Overall, Mr. Chairman, over 70 percent of students 
enrolling at Peralta need some level of developmental education to get 
up to college level standards. Veterans benefits cover 6 hours for 
developmental courses that are non-credit. Quite frankly more is 
needed. Many students, especially veterans who may have been out of 
school for awhile, need more than 6 hours to begin taking credit 
courses.
    Second, we recommend providing more institutional resources for 
colleges to be able to support their veteran populations. At present, 
each of our four colleges tracks veteran students at their respective 
institutions. A district-wide position, Dean of Equity and Student 
Success, has just been created that will provide a centralized way of 
tracking the progress of veteran students. Peralta is funding this 
position out of its own resources. We believe that the VA should 
provide it instead, at Peralta and other colleges. This would guarantee 
that colleges can provide essential services to help their veteran 
students succeed.
    Finally, we encourage the military services and VA to provide more 
transition support for veterans who are discharged from active duty. We 
have found that students often struggle to make the adjustment to 
civilian life and preparation for post-secondary education. Many suffer 
from emotional trauma from their active duty experiences and many do 
not understand the basics of financial management.
    You are aware of the issues, which have been identified previously, 
but still exist. We commit to working with you to help create programs 
to address these needs.
    In summary, Mr. Chairman, in preparation for this appearance over 
the last week, I met with a number of our veteran students. I was 
pleased to find that they are happy at Peralta and are getting a solid 
base to their educational and career goals. Veterans educational 
programs are the ultimate win-win situation. Many of the certificate 
and workforce programs dovetail into the experiences the students had 
when they were in service, leading to rewarding careers in auto 
technologies, aviation engineering and allied health services. As I 
mentioned at the start of my testimony, I served as a Navy officer for 
24 years. I took an oath to protect the interests of enlisted 
personnel. That carries over into my retirement. I am personally 
dedicated to the well-being of our veteran students and Peralta shares 
that deep commitment. We look forward to working with this Committee to 
provide the best educational experiences for our nation's veteran 
population.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
</pre></body></html>
